<html>
<title> - SUPPLEMENTAL EDUCATIONAL SERVICES UNDER THE NO CHILD LEFT BEHIND ACT: HOW TO IMPROVE QUALITY AND ACCESS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                   SUPPLEMENTAL EDUCATIONAL SERVICES
                  UNDER THE NO CHILD LEFT BEHIND ACT:
                   HOW TO IMPROVE QUALITY AND ACCESS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 18, 2007

                               __________

                           Serial No. 110-20

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                    U.S. GOVERNMENT PRINTING OFFICE
34-539                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                   DALE E. KILDEE, Michigan, Chairman

Robert C. ``Bobby'' Scott, Virginia  Michael N. Castle, Delaware,
Dennis J. Kucinich, Ohio               Ranking Minority Member
Susan A. Davis, California           Peter Hoekstra, Michigan
Danny K. Davis, Illinois             Mark E. Souder, Indiana
Raul M. Grijalva, Arizona            Vernon J. Ehlers, Michigan
Donald M. Payne, New Jersey          Judy Biggert, Illinois
Rush D. Holt, New Jersey             Luis G. Fortuno, Puerto Rico
Linda T. Sanchez, California         Rob Bishop, Utah
John P. Sarbanes, Maryland           Todd Russell Platts, Pennsylvania
Joe Sestak, Pennsylvania             Ric Keller, Florida
David Loebsack, Iowa                 Joe Wilson, South Carolina
Mazie Hirono, Hawaii                 Charles W. Boustany, Jr., 
Phil Hare, Illinois                      Louisiana
Lynn C. Woolsey, California          John R. ``Randy'' Kuhl, Jr., New 
Ruben Hinojosa, Texas                    York
                                     Dean Heller, Nevada


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 18, 2007...................................     1

Statement of Members:
    Castle, Hon. Michael N., Senior Republican Member, 
      Subcommittee on Early Childhood, Elementary and Secondary 
      Education..................................................     3
        Prepared statement of....................................     3
    Fortuno, Hon. Luis G., a Resident Commissioner from the 
      Territory of Puerto Rico, letter for the record............    70
    Kildee, Hon. Dale E., Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
    Scott, Hon. Robert C. ``Bobby,'' a Representative in Congress 
      from the State of Virginia, questions for the record.......    80
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, submission for the record:
        Prepared statement of Steven Pines, executive director, 
          Education Industry Association.........................    84

Statement of Witnesses:
    Ashby, Cornelia M., Director of Education, Workforce, and 
      Income Security Issues, U.S. Government Accountability 
      Office.....................................................     5
        Prepared statement of....................................     8
        Response to questions for the record.....................    81
    Chafin, Ann E., assistant State superintendent for student, 
      family and school support, Maryland State Department of 
      Education..................................................    30
        Prepared statement of....................................    32
        Response to questions for the record.....................    82
    Murray, Ruth D., director, Federal grants, Newport News 
      Public Schools.............................................    43
        Prepared statement of....................................    45
        Response to questions for the record.....................    83
    Piche, Dianne M., executive director, Citizens' Commission on 
      Civil Rights...............................................    47
        Prepared statement of....................................    49
    Roberts, Monica M., director, office of Federal and State 
      programs, Boston Public Schools............................    34
        Prepared statement of....................................    36


                   SUPPLEMENTAL EDUCATIONAL SERVICES
                  UNDER THE NO CHILD LEFT BEHIND ACT:
                   HOW TO IMPROVE QUALITY AND ACCESS

                              ----------                              


                       Wednesday, April 18, 2007

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 9:32 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Dale Kildee 
[chairman of the subcommittee] presiding.
    Present: Representatives Kildee, Scott, Kucinich, Davis of 
California, Grijalva, Holt, Sarbanes, Sestak, Loebsack, Hirono, 
Woolsey, Hinojosa, Castle, Ehlers, Biggert, Fortuno, Platts, 
Keller, and Heller.
    Staff present: Aaron Albright, Press Secretary; Alice Cain, 
Senior Education Policy Advisor (K-12); Lloyd Horwich, Policy 
Advisor for Subcommittee on Early Childhood, Elementary and 
Secretary Education; Lamont Ivey, Staff Assistant, Education; 
Jill Morningstar, Education Policy Advisor; Joe Novotny, Chief 
Clerk; Lisette Partelow, Staff Assistant, Education; Rachel 
Racusen, Deputy Communications Director; Theda Zawaiza, Senior 
Disability Policy Advisor; James Bergeron, Deputy Director of 
Education and Human Services Policy; Kathryn Bruns, Legislative 
Assistant; Steve Forde, Communications Director; Victor Klatt, 
Staff Director; Chad Miller, Professional Staff; and Linda 
Stevens, Chief Clerk/Assistant to the General Counsel.
    Chairman Kildee [presiding]. Good morning. A quorum being 
present, the hearing of the subcommittee will come to order.
    Pursuant to committee rule 12-A, any member may submit an 
opening statement in writing, which will be made part of the 
permanent record.
    I will now recognize myself followed by Governor Castle.
    Before I begin my opening statement, I want to extend the 
committee's thoughts and prayers to the members of the Virginia 
Tech community as they grieve their losses and they seek to 
move forward. It is something that touches everyone. No man or 
no person is an island. And we all extend our thoughts and 
prayers and condolences.
    I am pleased to welcome my fellow subcommittee members, the 
public, and our witnesses today, some of whom have been here 
before. And we appreciate that. We are having this hearing on 
``Supplemental Educational Services Under the No Child Left 
Behind Act: How to Improve Quality and Access.''
    Including supplemental educational services in the No Child 
Left Behind Act was a significant addition. And implementation 
of those provisions has presented many challenges at the 
federal, state and local level.
    And today's hearing will play a critical role in the 
committee's efforts to understand how these provisions are 
working and whether they can be better implemented or improved 
so that the law's goal of providing every student with a world-
class education, a goal we all share, can be realized.
    Last August our first witness, the Government 
Accountability Office, found, among other things, that states 
and school districts needed much more assistance from the 
Department of Education to fully and successfully implement 
these services. Today GAO will testify that the department has 
made progress in that area.
    I also look forward to hearing from our state and district 
witnesses, whether they have seen that progress on the ground. 
We will hear from the state of Maryland about its efforts to 
ensure quality services and to reach out to parents and also 
about the challenges states face in ensuring access in rural 
areas and for students with special needs.
    As many of you know, since 2005, the Department of 
Education has established two pilot projects concerning 
supplemental educational services. And we are fortunate to have 
with us a participant from each pilot.
    The Boston Public Schools will describe their experience 
with the pilot that allowed school districts in need of 
improvement to continue acting as service providers and how 
that affected both the quality and access to supplemental 
services. And Newport News will tell us about having switched 
the order of public school choice and supplemental services so 
that supplemental services were offered first.
    Both of these pilot projects represent important issues for 
us to discuss during reauthorization. And I am pleased we have 
the opportunity to hear directly from these participants.
    Finally, the Citizens Commission on Civil Rights will give 
us what they describe as both the good and bad news about 
implementation, that while parents generally are satisfied, 
there also remains much work to do to increase access. Of 
course, one challenge that has been ongoing for 5 years is 
funding. We owe it to our children to ensure that their schools 
have the resources and support to provide them with the 
education they need and deserve.
    Since 2002, Congress and the President have under-funded No 
Child Left Behind by $56 billion. And the President's proposed 
budget for 2008 would under-fund the law by another $15 billion 
for a total of $71 billion. However, I am hopeful with this 
Congress we will start to do better.
    I look forward to working with my ranking member, Mr. 
Castle, our full committee chairman, and the ranking member, 
Mr. Miller and Mr. McKeon, and with all the members of the 
committee on bipartisan reauthorization of NCLB.
    I now yield to Ms. Biggert for her opening statement.
    Mrs. Biggert. Thank you very much, Mr. Chairman.
    I will actually read Mr. Castle's opening statement. And he 
will be along. We had a schedule conflict this morning with our 
conference and this hearing since everything was changed from 
yesterday.
    So I would like to thank my colleagues for joining me here 
today for the latest in our series of hearings on No Child Left 
Behind.
    As always, I would like to thank our chairman, Mr. Kildee, 
for his continued dedication to hearing from education leaders 
around the country and all of you for being here today to 
testify.
    Today's hearing will examine the challenges and successes 
of the implementation of the supplemental educational services 
provisions under the No Child Left Behind Act and focus on ways 
Congress can help to improve quality and access to these 
services.
    Under No Child Left Behind, students attending Public 
Schools that do not make adequate yearly progress for 3 
consecutive years have the right to take advantage of the free 
supplemental services. Although the number of students 
benefiting from SES is gradually increasing, I remain concerned 
about the low overall rate of participation in these important 
services. Today I hope we can examine how to increase this 
level of participation.
    Throughout the reorganization of NCLB, we must continue to 
explore the best ways to help students by looking at how the 
performance of private tutoring providers can be evaluated, how 
we can ensure that private tutoring companies are aligned with 
the school districts they are working with, and what role the 
school district can play in providing students supplemental 
services when the district has been identified as in need of 
improvement.
    I am certain this hearing will build upon the previous 
hearings in this series. And I am eager to hear the unique 
perspectives of our witnesses. And I extend a warm welcome to 
them.
    And I see that the Ranking Member Castle, has joined us. I 
have just read his statement.
    But you might like to add a few words to that. And I yield 
the balance of my time.
    Mr. Castle. I thank the gentlewoman for yielding.
    That was a brilliant statement you read, by the way. 
[Laughter.]
    I would just like to thank you for that.
    The only thing I would add to it is I just consider these 
services to be of vital importance. To me they are the link 
between the schools which are not making adequate yearly 
progress and those which are. And I think we need to do 
everything in our power to make sure these are being provided 
as well as we can.
    I look forward to the hearing. I yield back.
    [The prepared statement of Mr. Castle follows:]

Prepared Statement of Hon. Michael N. Castle, Ranking Minority Member, 
  Subcommittee on Early Childhood, Elementary and Secondary Education

    Good morning. I'd like to thank my colleagues for joining me here 
today for the latest in our series of hearings on the No Child Left 
Behind Act. As always, I'd like to thank our Chairman, Mr. Kildee, for 
his continued dedication to hearing from education leaders around the 
country, and all of you for being here to testify today.
    Today's hearing will examine the challenges and successes of the 
implementation of the supplemental educational services (or SES) 
provisions under the No Child Left Behind Act, with a focus on ways 
Congress can help to improve quality and access to these services.
    Under No Child Left Behind, students attending public schools that 
do not make adequate yearly progress (or AYP) for three consecutive 
years have the right to take advantage of free supplemental services. 
While the number of students benefiting from SES is gradually 
increasing, I remain concerned about the low overall rate of 
participation in these important services. Today I hope we can examine 
how to increase this level of participation.
    Throughout the reauthorization of NCLB, we must continue to explore 
the best ways to help students by looking at how the performance of 
private tutoring providers can be evaluated, how we can ensure that 
private tutoring companies are aligned with the school districts they 
are working with, and what role the school district can play in 
providing students supplemental services when the district has been 
identified as in need of improvement.
    I'm certain this hearing will build upon the previous hearings in 
this series, and I am eager to hear the unique perspectives of our 
witnesses--and I extend a warm welcome to them.
                                 ______
                                 
    Chairman Kildee. Thank you. Thank you, Ms. Biggert.
    Thank you, Governor Castle. I appreciate it.
    We work very well together on this committee. We have done 
our best work in a bipartisan way. And the two people who have 
just spoken have proven their desire and eagerness to work in a 
bipartisan way and have a great record.
    And I thank you for that.
    Without objection, all members will have 7 calendar days to 
submit additional materials or questions for the hearing 
record.
    I would like to introduce the very distinguished panel we 
have before us this morning.
    Cornelia Ashby, who has been here a number of times, is 
Director of Education, Workforce, and Income Security for the 
Government Accountability Office. Ms. Ashby joined GAO in 1973. 
In 1992, she was selected for GAO's senior executive candidate 
development program and in 1994 was appointed an associate 
director for education and employment issues. She began her 
current position in the year 2000.
    Ann Chafin is Maryland's assistant state superintendent of 
the division of student, family, and school support overseeing 
Title I master planning, school improvement, student services, 
and youth development. Previously Ms. Chafin was the state's 
Title I director where she oversaw hundreds of millions of 
dollars in federal and state aid for at-risk students.
    Monica Roberts is the director of federal and state 
programs for the Boston Public Schools where she is responsible 
for the district's compliance with the No Child Left Behind 
Act, administration of supplemental educational services, and 
financial resource development. Ms. Roberts is also a graduate 
of the Boston Public Schools.
    And I would yield at this time to Bobby Scott to introduce 
the next witness.
    Mr. Scott. Thank you, Mr. Chairman.
    And I thank you for mentioning Virginia Tech. Yesterday 
both of our U.S. senators and nine of the 11 House members were 
at Virginia Tech at the ceremony with the president and our 
governor. And we appreciate your reference.
    I appreciate also your allowing me to introduce Ms. Murray 
from Newport News, which is located in my district. She is the 
director of federal grants for Newport News Public Schools. She 
has an educational specialist degree from George Washington 
University as well as a master's degree in reading from the 
University of Tennessee and a bachelor's degree in early 
childhood and elementary education from Carson-Newsome College.
    She worked in Title I programs for 10 years and served as 
both a principal and teacher in the Newport News Public School 
system. Newport News has been particularly successful in 
implementing supplemental educational services.
    And I would like to thank Ms. Murray for traveling here 
today to provide her testimony about these successes. And we 
look forward to hearing her recommendations. So I hope that we 
can benefit from the Newport News experience. And I thank Ms. 
Murray for coming today.
    And thank you, Mr. Chairman.
    Chairman Kildee. Thank you, Mr. Scott.
    Our next witness, Dianne Piche, is executive director of 
the Citizens Commission on Civil Rights, where she specializes 
in promoting educational equity. Previously she directed the 
commission's Title I monitoring project, which examined the 
impact of education reforms on disadvantaged children.
    We welcome all our witnesses.
    For those of you who have not testified before this 
subcommittee before, I will explain our lighting system and the 
5-minute rule we have.
    Everyone, including the members, is limited to 5 minutes of 
presentation or questioning. The green light will be 
illuminated when you begin to speak. And when you see the 
yellow light, it means you have 1 minute remaining. When you 
see the red light, it means that your time has expired and you 
need to conclude your testimony. You certainly may complete 
your paragraph or thought. And there is no ejection seat there. 
But we would ask you to try to begin to terminate when you see 
the red light.
    Please be certain that as you testify that you turn on your 
microphone and speak into the microphone and turn it off when 
you are finished.
    We will now hear from our first witness, Ms. Ashby.

    STATEMENT OF CORNELIA M. ASHBY, DIRECTOR OF EDUCATION, 
    WORKFORCE, AND INCOME SECURITY ISSUES, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Ms. Ashby. Mr. Chairman and members of the subcommittee, I 
am pleased to be here today to present information from our 
August 2006 report on SES implementation.
    While our September testimony before the full committee 
provided an overview of that report, our current testimony 
statement and my comments this morning focus on access and 
service delivery, federal and state oversight, and recent 
Department of Education actions to improve implementation.
    In the 2004-2005 school year, 19 percent of eligible 
students, that is 430,000 students, received SES. To increase 
participation, districts have taken multiple actions.
    For example, we estimate that 90 percent or more provided 
written information about the services to parents with 72 
percent also providing the information in a language other than 
English. Ninety percent of them held individual meetings and/or 
phone conversations with parents, encouraged school staff to 
talk with parents about the services or offered services in 
locations that were easily accessible to students after school.
    However, challenges to increase access and participation 
remain. Challenges include notifying all parents in a timely 
and effective manner and attracting a sufficient number of 
service providers within areas and groups of students such as 
those with limited English proficiency or disabilities.
    For example, we estimate that there were not enough 
providers to meet the needs of students with limited English 
proficiency in one-third of districts and not enough to meet 
the needs of students with disabilities in one-quarter of 
districts. While providers have taken some steps to deliver 
quality services, both providers and districts have experienced 
coordination difficulties that have sometimes resulted in 
service delays. Service providers have aligned their curriculum 
with district instruction primarily by hiring district teachers 
and communicating with the teachers of participating students.
    However, when providers did not hire district teachers, the 
frequency of contact between tutors and teachers varied. And 
some providers did not contact teachers at all. Providers also 
communicated with parents, including talking with parents over 
the phone and meeting with them in person to communicate 
information on student needs and progress. However, the 
frequency of communication with parents also varied.
    Coordination of service delivery has been a challenge. For 
example, services were delayed or withdrawn in certain schools 
in three of the districts we visited because not enough 
students signed up to meet the provider's enrollment targets, 
which the districts were not aware of. In part because 
supplemental services are often delivered in school facilities, 
providers and officials in the districts and schools we visited 
reported that involvement of school administrators and teachers 
can improve service delivery and coordination.
    While state oversight of SES implementation and quality has 
been limited, at the time of our review, the number of states 
doing such monitoring was increasing. State oversight includes 
on-site reviews of districts and providers as well as reviewing 
information on providers, service delivery, and use of funds, 
parent or student satisfaction with providers, and student 
attendance.
    However, oversight continues to be a challenge for states, 
and they continue to struggle to develop meaningful evaluations 
of service providers. Although several education offices 
monitor various aspects of SES activity and provide SES support 
through guidance, grants, research and technical assistance, 
states and districts reported needing additional assistance and 
flexibility with program implementation.
    In our 2006 report, we made several recommendations to 
education. And education has made significant progress toward 
addressing some of them. Specifically, education has taken 
steps that address our recommendations focused on increasing 
dissemination of promising practices related to parental 
notification, tracking providers in certain areas and student 
groups, and improving local coordination.
    For example, between November 2006 and March 2007, 
education staff conducted an outreach tour during which they 
met with state and district officials, providers, and parents 
in 14 large school districts and discussed issues such as 
parental outreach, parental notification, serving special 
student populations, and local coordination. The department 
plans to disseminate information collected during the tour 
through a handbook to be distributed to state and district SES 
and school choice coordinators at a national meeting this 
summer.
    Education has also taken some actions that address our 
recommendations for improving state and district use of SES 
funds by extending and expanding its pilot program to allow 
four districts in need of improvement to serve as SES providers 
for the current school year. In addition, education has 
responded to our recommendation to improve federal and state 
SES monitoring by requiring all states to submit information on 
district SES spending to the department and providing technical 
assistance and guidance to states on evaluating the effect of 
SES on student academic achievement.
    The department's center on innovation and improvement 
issued an updated version of the guide book on SES evaluation 
in November 2006. And it plans to provide technical assistance 
before the end of the current school year to 16 states that 
have requested such assistance.
    Mr. Chairman, this completes my prepared statement. I would 
be happy to answer any questions.
    [The statement of Ms. Ashby follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Kildee. Thank you very much.
    Ms. Chafin?

STATEMENT OF ANN E. CHAFIN, ASSISTANT STATE SUPERINTENDENT FOR 
 STUDENT, FAMILY AND SCHOOL SUPPORT, MARYLAND STATE DEPARTMENT 
                          OF EDUCATION

    Ms. Chafin. Chairman Kildee, thank you very much for 
allowing me an opportunity to describe Maryland's program for 
you today.
    In Maryland, under the wonderful guidance of Dr. Nancy 
Grasmick, our state superintendent, we are never content with 
compliance. We always, for our children, try to ensure 
compliance and move past that to excellence. And I think we are 
on the way to doing that with our SES program.
    I have to say up front though, this takes enormous planning 
and enormous resource to be able to ensure that this program is 
what is appropriate for each of our children.
    You first start with the idea of why would we be doing 
this. Every educator I know whose own child is struggling first 
turns to a tutor. So we felt that if that was the concept, if 
we could embrace it that way, that we could maximize the use of 
the funds that we are putting forward for SES.
    We have a very rigorous application process for our 
vendors. We started out not as rigorous as we are now. We 
learned from every year's experience. We began with having them 
describe clearly their reading and mathematics programs.
    We now make sure that they also show how that closely 
aligns with our Maryland voluntary state curriculum. We want to 
make sure that the services being provided to these students 
actually will advantage them when they face the assessment 
programs and the instruction going on. There should be a match.
    We work very closely with the school systems to make sure 
that they understand the issues that are facing them, many of 
them contractual and others. And I have to say in light of the 
horrific problem at Virginia Tech, we also must be clear here 
that health and safety is primary in providing any of these 
programs. So things like background checks and monitoring those 
programs that actually go into children's homes becomes a very 
serious issue and again, something that is much more 
complicated for us to do.
    We have an SES collaboration team that is composed of 
people throughout the state that are affected by this. We have 
a tool kit that gives model contracts, model parent letters, 
strategies to vendors. We do a great deal of technical 
assistance with our vendors.
    At this point in time, I proudly say to you that nationally 
there is a 19 percent participation rate in SES. And in 
Maryland, that is 68 percent.
    We look at it as systematically removing the barriers for 
children to have access to these programs.
    One of the things that we started out--a couple of our 
districts had letters for the parents that said, ``Pursuant to 
the reauthorization of ESEA''--I didn't even finish reading the 
sentence. We now send letters home that say, ``Good news: Your 
son or daughter might be eligible for extra tutoring.'' Those 
are the things--you must go to the people--the parents are the 
ones that understand the need. And you must also look at the 
barriers they have for having their children have access to 
these programs.
    You have to work with the schools. A principal who says, 
``Gee, Tommy, don't you get to go to SES this afternoon? Let me 
walk you there. Tell me a little bit about what you are 
doing''--that kind of interaction with the school-based people 
makes such a difference to the attitudes the children go in 
with.
    We still have some big issues at the state level to deal 
with, not the least of which is the expense. Maryland has made 
the decision to put two full-time people behind this effort. 
That means that other aspects of Title I may not have the same 
support they would have had. So it is a decision making 
process.
    We know that in our more rural districts--and Maryland does 
not have districts that are rural by the typical definition of 
rural. But those Eastern shore and Western Maryland counties 
that we have we do not have nearly the number of vendors 
available to them. We have 47 vendors on our approved list.
    But there are times that when you have the criterion of a 
certain number of students that must chose that vendor before 
they would offer the contract. In school systems like Kent 
County that have so few kids that are eligible to begin with, 
it is very hard to meet that standard.
    We frequently do have online vendors that will serve any 
area. But they offer us unique monitoring issues and monitoring 
problems to deal with. So we are continuing to work with our 
rural schools to encourage them to do parent outreach so their 
numbers go up so that we can, in fact, have vendors available.
    It is a wonderful opportunity. But it brings with it a lot 
of responsibility. Thank you very much.
    [The statement of Ms. Chafin follows:]

Prepared Statement of Ann E. Chafin, Assistant State Superintendent for 
   Student, Family and School Support, Maryland State Department of 
                               Education

    Chairman Kildee, and members of the Committee, thank you for the 
opportunity to testify today on how Maryland has implemented the 
Supplemental Educational Services (SES) component of No Child Left 
Behind (NCLB). My name is Ann Chafin, and I am the Assistant State 
Superintendent for Student, Family and School Support at the Maryland 
State Department of Education (MSDE). I have been in the role for less 
than a year and served, prior to this, as Maryland's State Director for 
Title I. I have fifteen years experience in one of Maryland's 24 school 
districts as Director of Research and Assessment.
    I am pleased to share with you Maryland's progress and successes in 
implementing the Supplemental Educational Services program mandated for 
Title I. Under the insightful direction of our State Superintendent, 
Dr. Nancy S. Grasmick, MSDE has been proactive in implementing NCLB. 
Dr. Grasmick is never content with compliance when it comes to 
educating Maryland students so we make every effort to ensure 
compliance but step beyond it to excellence.
    Title I, as you well know, is a compensatory program. That means we 
must offer programming that compensates for the lack of rich, varied 
experiences that often form the basis for academic achievement; that 
recognizes and addresses health and environmental issues that cause 
education to slip down the list of priorities; and that is delivered by 
the best teachers and administrators that we can possibly provide.
    It has been my experience that when educators find their own 
children struggling in school they most frequently turn to a tutor. The 
SES program extends this opportunity to the economically disadvantaged 
children of this country who are attending low-performing schools. Our 
philosophy has been simply, if educators believe in tutoring, this 
program ought to work. And the SES program is working in Maryland.
    First, SES providers are selected through rigorous application and 
review processes in Maryland. We believe the application requirements 
are the first steps toward providing quality services to our children. 
Based on what we have learned over the last six years, we have refined 
the application to more closely align the programs described by the 
vendors with Maryland's Voluntary State Curriculum. If this work is to 
be effective, vendors must be instructing students on the same material 
that is expected of them in their classrooms and on the Maryland School 
Assessment.
    We have also encouraged and required vendors to work closely with 
the school systems and the schools so that communication is clear and 
school personnel feel they have input into the process.
    Our data reporting requirements ask that MSDE, each local school 
system and each vendor reconcile any discrepancies in participation, 
attendance, goals setting and parental notification before we declare 
the information final. In order to assure that this cooperation is 
evident, we offer extensive technical assistance to potential vendors 
prior to their application. When all players are fully informed and 
participatory, the quality of SES programs improves.
    Part of program improvement in Maryland must be credited to our 
monitoring system. Noted in the January 23, 2007 publication of 
Education Daily, Maryland is referred to as the ``data dream.'' In 
2002, we developed an instrument that collected information on each 
student receiving services, each provider, and each local school 
system. In 2003, we converted that instrument to an Access data file 
that allowed us to disaggregate data state-wide, set up reporting 
dates, and trained local systems and providers to use it. The Access 
file collects and monitors contact hours with students, as well as, 
contacts with parents, local systems, and classroom teachers, 
measurable goals, and parent outreach methods, among other data. The 
message to all providers and local systems in Maryland is that every 
aspect of SES is under scrutiny. It is valued and important, and our 
data collection system is taken seriously. Delivering the best 
opportunities available to our students is our focus. Monitoring also 
includes site visit reports that identify findings and commendations, 
all available on our websites.
    Local school systems assist in all aspects of the program. Early 
on, all LEA SES Coordinators were invited to become part of the SES 
Collaboration Team. We meet four times a year and candidly discuss our 
concerns and contribute to resolutions. The State Department 
facilitates the discussion and researches the questions. The 
relationships forged through the team saved countless hours for local 
systems, and the entire State moved forward together. We developed a 
Toolkit and, today, the toolkit continues to be updated with new 
documents the LEAs are using. All documents, including the minutes of 
the meetings are posted on the website. Now, we have LEAs attending the 
meetings that are not yet required to offer SES but want to be prepared 
if SES is a requirement.
    One of the team's most frequently discussed concerns is how to 
increase parent involvement. Those discussions have paid off. Today, 
with a national participation rate of about 19%, Maryland's 
participation rate is about 68%. The statute requires local school 
systems to engage in aggressive parent outreach. Parents of eligible 
children must select a provider to tutor their child. If parents don't 
select, students do not participate. The six LEAs required to offer SES 
in Maryland work hard at strategies that are effective. Local systems 
stopped offering provider fairs; parents don't come. They stopped using 
letters that are too hard to read; parents can't understand them. Local 
systems enlisted the help of the individual schools, and parents felt 
more engaged. We worked through our collaboration team to remove every 
barrier to parent participation, including an agreement from each LEA 
that providers may use their school buildings. Last year, SES funds 
allowed for the participation of 15,837 students; of those 10,718 
participated--an impressive 68%. Baltimore City enjoys a remarkable 99% 
participation rate.
    Two areas continue to leave us with unanswered questions. One, in 
our rural areas we have limited access to vendors. Although Maryland 
has almost 50 vendors on the approved list, most of them only work in 
the metropolitan areas. We had an instance in Western Maryland where 
parents of second graders in a school requested SES but no vendors were 
available for primary tutoring in that area. We were able to redirect 
dollars to a summer program for those students, but that was not a long 
term solution.
    Also, we continue to struggle with programs for special needs 
students. Although many of our vendors do offer these services, it 
requires much more monitoring and support to ensure that the IEP is 
honored and the work is directed at the appropriate strategies.
    As proud as I am of the accomplishments made in Maryland with this 
program, I must put it in a context. Maryland has only 24 school 
districts, admittedly some of them are quite large, but still only 24. 
We have an internal monitoring structure that allows me to assign two 
districts to each Title I specialist, in addition to many other 
responsibilities. This means that we know each coordinator and can help 
them address their individual issues. When it comes to SES, only 6 of 
those 24 districts must offer SES. Other states that have hundreds of 
school districts have a much more difficult job of technical 
assistance, monitoring and communication.
    The successes we have experienced in this program so far are due to 
the decision by MSDE to dedicate two positions to this work. Dr. Jane 
Fleming has led the development of the monitoring instrument and the 
oversight of the implementation of the program. She is our secret 
weapon. Site visits with written feedback that are posted for the world 
to see are some of our best tools for improvement. Dr. Fleming, 
supported by a loaned educator from a school district, developed that 
process also.
    Additionally, Maryland has only begun the process of evaluating the 
effectiveness of these programs. We have a contract in place to pursue 
the relationship between the work of each of our approved vendors and 
success on the Maryland School Assessment. When we reach the point of 
removing vendors from our list because of lack of effectiveness, this 
program will enter another political realm. We look forward to the 
support of the US Department of Education as we make these very 
difficult decisions.
    Thank you for this opportunity.
                                 ______
                                 
    Chairman Kildee. Thank you very much.
    Ms. Roberts?

STATEMENT OF MONICA M. ROBERTS, DIRECTOR, OFFICE OF FEDERAL AND 
             STATE PROGRAMS, BOSTON PUBLIC SCHOOLS

    Ms. Roberts. Good morning, Chairman Kildee, Ranking Member 
Castle, and members of the subcommittee. My name is Monica 
Roberts. And I am the director of federal and state programs 
for Boston Public Schools. Thank you for this opportunity to 
testify at this House hearing on supplemental educational 
services.
    Boston Public Schools is the largest school district in 
Massachusetts and serves the largest number of low-income 
students in the commonwealth with 71 percent of our students 
eligible for free or reduced price lunch. Eighty-six percent of 
our students are minorities. The district was one of nine 
organizations approved by the Massachusetts Department of 
Education to provide SES services in Boston. Today we continue 
to operate our SES program through the pilot project offered by 
the U.S. Department of Education.
    Boston has won numerous awards and recognition for its 
continuous improvement towards and closing the achievement gap 
and moving towards proficiency for all students, including the 
2006 Broad Foundation prize for urban education. Despite our 
progress and continued gains in student academic performance, 
60 schools were identified this school year as not having made 
AYP for 3 or more consecutive years, up from 43 schools in 
School Year 2005-2006 and 22 in School Year 2004-2005.
    This year Boston Public Schools notified nearly 23,000 
students of the availability of SES programs and reserved 
nearly $5.9 million of its Title I grant for of SES. Based on 
the per pupil allocation of nearly $2,400, the district 
estimated that it could serve about 2,460 students, a total of 
4,400 eligible students applied for SES services. And 70 
percent of these chose the Boston Public Schools as its 
provider.
    The per pupil cost for the district program is $610, a 
quarter of the cost charged by other providers for their own 
SES program. When our district acts as a provider, the balance 
of the per pupil SES allocation, approximately $1,800, remains 
in the available SES funding pool to allow for continued 
enrollment above the 2,460 students originally projected.
    As a result, the district has been able to accommodate 
every student applying for SES this year and nearly 2,000 more 
students are being served in the program because the Boston 
Public Schools is a provider. Boston's experience is consistent 
with those of other urban school districts, as you can see in 
the Council of Great City Schools data at the end of my written 
testimony.
    The BPS SES program model offers small group differentiated 
academic intervention services and tutoring in mathematics, 
reading, and writing for a minimum of 80 hours and up to 136 
hours. At 80 hours per child, the district offers between 33 
percent and 100 percent more hours than other providers.
    Having experienced SES as both a provider and a district 
managing the program, Boston has been working to identify areas 
of strength and areas in need of improvement. Particularly, the 
district is excited by the role that parents are asked to play 
in this initiative and the effort to empower parents to make 
informed choices that can result in significant academic 
improvement. Schools hosting SES programs have found that 
parents with children enrolled in these programs are engaged 
and actively seek to understand their children's academic 
performance and strategies to support growth.
    Challenges are inevitable, and the district is working 
collaboratively with providers and the state department of 
education to address them. The district has focused its efforts 
on developing and offering practical solutions to some of the 
problems that have inundated districts and providers.
    Boston Public Schools offers the following proposals to 
strengthen Supplemental Educational Services. We recommend 
revising the student eligibility requirement to be prioritized 
into two categories: low-income and low-performing and low-
performing students from groups performing below proficiency on 
the state assessment; permit all districts to become SES 
providers, regardless of their NCLB status; all SES providers 
should be required to hire highly qualified instructional 
staff, including staff working with English language learners 
and special needs students; allow districts to use 10 percent 
of SES funds to cover overhead and program management costs, 
which are high and can limit district ability to support 
program expansion.
    In particular, districts are currently covering the cost of 
data management systems, enrollment materials, program 
management staff, and parental outreach, which includes 
newspaper and radio advertisements, fliers. Require states to 
comply with the current requirement to evaluate providers and 
administer a common growth model of assessment for all 
providers; require all states to put limitations on incentives 
offered by providers to students for enrollment and recruitment 
of other students, not to exceed a $5 value per child; and 
finally, require all SES providers to serve all students 
enrolled in their program regardless of the number of students 
enrolled district-wide, and to begin services within 2 weeks of 
receiving their enrollment data.
    Mr. Chairman, this is the end of my prepared statement. I 
would be happy to answer any questions that you may have.
    [The statement of Ms. Roberts follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Kildee. Thank you very much.
    Ms. Murray?

STATEMENT OF RUTH D. MURRAY, DIRECTOR, FEDERAL GRANTS, NEWPORT 
                      NEWS PUBLIC SCHOOLS

    Ms. Murray. Thank you. Chairman Kildee, Ranking Member 
Castle, and members of the subcommittee, I appreciate the 
opportunity to be here today. As director of federal grants in 
Newport News, a great deal of my time is spent implementing and 
monitoring supplemental educational services.
    As part of the SES reversal pilot during the 2005 and 2006 
school years, Newport News Public Schools was allowed to 
implement SES during the first year of Title I school 
improvement instead of public school choice. A larger 
percentage of students, 68 percent as compared to 5 percent, 
have been provided help due to this reversal.
    In Newport News, we attribute our success to a variety of 
factors and strategies. We approached implementing SES in a 
systematic way across departments. We developed a master plan, 
a calendar and a timeline for implementing the project. 
Expectations and responsibilities were clearly defined.
    We received a great deal of support from the Virginia 
Department of Education through numerous training sessions on 
SES, opportunities to network with other divisions, monitoring 
visits, and printed resources for the program. State department 
representatives and coordinators were always available to 
answer questions and help us work through problems and issues.
    In Newport News, SES facilitators are recruited to manage 
the SES program in the school. Last year, SES facilitators were 
selected from existing school personnel. But because of the 
added responsibility on existing staff members distracted from 
their main jobs, part-time facilitators were hired this year 
from student teachers, retired teachers, and the local 
universities.
    We consider our SES providers partners in our students' 
success. SES providers are not charged for the use of our 
school buildings. And they may contract with the school 
division to provide transportation services. SES providers must 
provide criminal background checks, T.B tests, and 
fingerprinting for all tutors. SES tutors receive training from 
our district supervisors in the math and reading curriculum of 
our division as well as the state SOL standards.
    Believing there is value in having SES providers and tutors 
dialoguing with parents, teachers, and administrators about 
academic achievement, SES providers are invited to serve on 
each school's school improvement team. In order for SES to have 
a positive impact on schools and communities, the program 
cannot be a separate entity, but must be integrated into the 
school's culture.
    Rather than rely just on fliers in students' book bags, 
Newport News has used a variety of strategies to make parents 
well-informed about the SES opportunity. Open house, back to 
school night, parent/teacher conferences, progress reports, and 
child study meetings are all used as opportunities to discuss 
and encourage parents to take advantage of the SES opportunity.
    The parent application booklet is available as soon as 
possible after school starts in the fall and contains 
information for parents to contact SES providers directly. Our 
SES application is mailed home several times to parents with a 
stamped, self-addressed envelope. And it is available online in 
different languages.
    A list of parents not returning the SES application form is 
maintained by the SES facilitator and the classroom teacher. 
The school staff continues to contact these parents throughout 
the year with phone calls, home visits, and additional 
mailings.
    Other strategies to support participation are open 
enrollment periods, SES summer school, assemblies and 
incentives for students, information displayed on school 
marquees and in newsletters, the superintendent sending letters 
and meeting with faith-based leaders in the community, an 
automatic phone dialing system that has messages for parents.
    Regardless of our efforts, some parents have chosen not to 
participate in SES. On their children's application form, we 
received 283 parents declining SES services. Reasons included 
the parents felt the services were not needed, the student's 
schedule would not allow for any additional commitments, no 
transportation, and the family was moving.
    Reflections on our experiences with SES in Newport News 
have brought us to the following recommendations for improving 
the quality and access of SES: continue to allow schools the 
flexibility to reverse the order of sanctions in the first 2 
years of improvement; supplemental educational services may be 
offered to eligible students in Title I schools the first year 
and public school choice the second year; target SES funds to 
low-performing, low-income students; allow part of the 20 
percent set-aside to be used for administrative costs to 
implement programs; continue to allow unused SES set-aside 
funds to remain in the district for use in Title I schools; and 
tutors that are employed by the SES providers should meet the 
state's definition of highly qualified teachers.
    This would help to minimizes problems which have occurred 
such as tutors not showing up for sessions, not communicating 
with parents, not using appropriate language and discipline 
methods and also tutoring sessions where only the child went 
over the homework.
    I appreciate this opportunity again to present. And I 
welcome your questions.
    [The statement of Ms. Murray follows:]

    Prepared Statement of Ruth D. Murray, Director, Federal Grants,
                      Newport News Public Schools

    Thank you Chairman Kildee and Ranking Member Castle for the 
opportunity to speak before the Subcommittee. As the Director of 
Federal Grants in Newport News Public Schools (NNPS), a great deal of 
my time is spent monitoring and implementing Supplemental Educational 
Services. As part of the SES Reversal Pilot, during the 2005 and 2006 
school years, Newport News Public Schools was allowed to implement SES 
during the first year of Title I School Improvement instead of Public 
School Choice. A larger percentage of students, 68% as compared to 5%, 
have been provided help due to the reversal.
    In Newport News Public Schools, we attribute our success with SES 
to a variety of factors and strategies. We began with the examination 
of our current attitudes, policies and practices related to school, 
family and community partnerships. This examination involved teachers, 
school leadership teams, and members of central office. We approached 
implementing SES in a systematic way across departments. Working with 
staff members from academic services, purchasing, public relations, 
mail services, child nutrition, principals, and federal grants, a SES 
Plan, master calendar, and implementation timeline were developed. 
Expectations and responsibilities were clearly defined. We also 
received a great deal of support from the Virginia Department of 
Education through numerous training sessions on SES legislation, 
opportunities to network with school divisions experienced in 
implementing SES, monitoring visits, and printed resources for the 
program such as SES provider contracts, parent agreements and learning 
plans. Coordinators were readily available for working through problems 
or issues.
    In NNPS, SES facilitators are recruited to manage the SES process 
in each school. They serve as liaisons among central office, school 
personnel, SES providers, parents and students. Their responsibilities 
include scheduling space for providers, maintaining accurate records 
and reports, recruiting participants, and attending meetings with the 
Director of Federal Grants to share best practices. Last year, SES 
facilitators were selected from existing school personnel. Because the 
added responsibility on existing staff distracted them from their main 
jobs, part-time facilitators were hired this year for each school. 
Part-time facilitators were recruited from our retired teacher 
population, student teachers, and local universities.
    Training of our school personnel also is an important ingredient in 
our recipe for success. The agenda includes an overview of program 
requirements, Title I regulations and SES non-regulatory guidance, the 
SES facilitator's role, responsibilities of parents, provider 
contracts, the availability of supporting funds, a timeline for 
implementation, and assorted SES forms and documents.
    We consider our SES providers partners in our students' success. 
SES providers are not charged for the use of the school buildings, and 
they may contract with the school division for transportation services. 
SES providers must provide criminal background checks, TB tests, and 
fingerprinting for all tutors. Tutors also receive training with 
district supervisors on the division's math/reading curriculum and the 
state standards of learning. Believing there is value in having SES 
providers and the actual tutors dialoging with parents, teachers, and 
administrators about academic achievement, SES providers are invited to 
be on the School Improvement Team in each school. We believe that in 
order for SES to have a positive impact in the schools and community, 
the program can not operate in isolation but must be integrated into 
the school culture. By bringing providers to the table, school leaders 
can be sure everyone's goals are aligned.
    Rather than rely just on flyers in students' book bags, Newport 
News uses a variety of strategies to make sure parents are well 
informed about the SES opportunity. As much as possible we use our 
existing school culture to support SES participation and recruitment. 
Open House, Back to School night, parent/teacher conferences, progress 
reports and report cards, and child study meetings are all used as 
opportunities to discuss and encourage parents to take advantage of 
SES. Provider fairs are held in every school and parents are given the 
tools needed to organize information and examples of important 
questions to ask providers. The parent application booklet is available 
as soon as possible after school starts in the fall and contains 
information needed by parents to contact providers directly. Our SES 
application is mailed home several times to parents with a stamped, 
self-addressed envelope; it also is available online and in different 
languages. A list of parents not returning SES enrollment forms is 
maintained by each SES facilitator and classroom teacher. The school 
staff continues to contact parents throughout the year with phone 
calls, home visits, and/or additional mailings. We encourage 
participating parents to be ``ambassadors'' for the SES program and 
tell their neighbors and other eligible families about the services. 
Other strategies to support participation are an open enrollment 
period, SES summer program, assemblies and incentives for students, 
information displayed on school marquees outside buildings and in 
newsletters, the superintendent sending letters and meeting with faith 
community leaders in the community, and an automatic phone dialer 
system (Parent Link) activated with messages for parents. Regardless of 
our efforts, some parents are not using SES services. On their 
children's application forms, 283 parents declined SES services. 
Reasons included the parent felt the services were not needed, 
student's schedule would not allow for additional commitments, no 
transportation, and the family was moving.
    The Federal Grants Director meets regularly with SES providers to 
address problems or discuss issues so the program will operate 
smoothly. Parents are often good judges of quality. If a SES provider 
is not providing quality services, not showing up on time for the 
tutoring, not communicating with the parents, or using inappropriate 
language or discipline methods, parents will let us know and we will 
work with the provider to resolve the issues.
    Reflecting on our experiences with SES in Newport News, the 
following changes would, in my opinion, improve the quality and access 
of SES.
    <bullet> Continue to allow schools the flexibility to reverse the 
order of sanctions in the first two years of school improvement. 
Supplemental educational services may be offered to eligible students 
attending Title I schools in improvement in the first year and public 
school choice in the second year.
    <bullet> Target SES funds first to low performing, low income 
students in Title I schools and then to all economically disadvantaged 
students.
    <bullet> Allow part of the 20% set-aside to be used for 
administrative costs to implement the programs. The management of the 
SES and Public School Choice programs is very time consuming and less 
effective when added to personnel working in existing positions.
    <bullet> Continue to allow unused SES set-aside funds to remain in 
the district for use with Title I schools. Under the best of 
circumstances all set-aside funds for SES and Public School Choice may 
not be used.
    <bullet> Tutors employed by SES providers who provide direct 
instruction to students should meet the state definition of highly 
qualified teachers. This would help to minimize problems which have 
occurred such as tutors not showing up for sessions, the use of 
inappropriate language and discipline methods, and only covering 
homework assignments.
    Thank you for your attention. Again, I appreciate the opportunity 
to speak today.
                                 ______
                                 
    Chairman Kildee. Thank you very much, Ms. Murray.
    Ms. Piche?

  STATEMENT OF DIANNE M. PICHE, EXECUTIVE DIRECTOR, CITIZENS' 
                   COMMISSION ON CIVIL RIGHTS

    Ms. Piche. Good morning, Chairman Kildee, Mr. Castle, and 
members of the subcommittee. And thank you for the opportunity 
to testify today on the supplemental educational services 
provisions of No Child Left Behind.
    Today I would like to emphasize the concerns of my 
organization and other civil rights organizations for the 
students who are most left behind in public education today.
    There is a subset of students in K through 12 schools in 
the United States in dire need of hope and help, even a subset 
of the Title I eligible population of students. These are 
children who attend the lowest performing schools in the 
country, often in highly concentrated poverty environments. 
Many of their schools have been failing or on needs improvement 
lists on both federal and state measures for as long as these 
lists have been kept.
    They are children who are one or more grade levels behind. 
Many of these children and their parents despair of ever 
getting caught up. They tend to attend schools in either large 
urban areas or in rural areas, but not exclusively. And 
finally, I want to emphasize the students furthest behind tend 
to be poor and in one or more other sub-groups reported under 
NCLB. For example, they are also non-white, disabled or 
learning English.
    There are many ways in which NCLB provides hope and help to 
these and other students and their families. Today's subject, 
the SES provisions, is one tangible and much-needed way. 
Research and, indeed, the practice of middle-class and more 
affluent parents indicates that one on one and small group 
tutoring are among the more effective means of helping 
struggling students to get caught up to their appropriate grade 
level.
    And I probably don't need to say, but when students do not 
get caught up to grade level, they tend to fall further and 
further behind. And at some point if you cannot do math and 
reading on basic grade level, you cannot achieve in other 
subjects. And these students will drop out of school.
    Congress recognized the importance of extra tutoring, 
after-school programs, and summer school programs included in 
SES when it reauthorized Title I in NCLB. In fact, Congress 
said in the House report accompanying H.R. 1 that these 
services provide ``an important safety valve for students 
trapped in failing schools.''
    We now have several years of implementation of the 
supplemental services program. And, of course, when you begin a 
new program like this, as many of the witnesses have indicated, 
you have a lot of bumps in the road. You have a lot of 
relationships to be sorted out.
    And I have in the past analogized the relationship between 
providers and school districts as something akin to an arranged 
marriage or maybe even a shotgun wedding where we have 
organizations and entities that may not be used to working 
together. Some may not want to work together. But this law 
requires that everybody work together and figure it out and 
figure out how to do the best thing for children.
    When I was asked to testify, I wrote to some of my 
colleagues and was surprised at all the good news that is out 
there on the SES program. And I have summarized some of this 
good news in my testimony, including reports that have been 
done both by providers and by school districts as well as 
independent research from the University of Memphis.
    Unfortunately, not all the news about SES is good. And I 
have summarized in my report some of this bad news and want to 
call your attention to research that my own organization did. 
We essentially verified and the GAO then verified our research 
that the participation rates are abysmally low, both for the 
transfer program and for SES. We have some tables in the 
testimony. We show some of the variation among districts. This 
is 2004-2005 data, so I would just caution you that we believe 
there have been improvements in the participation rates.
    But one of the critical things to look at is the number of 
students eligible, the number of students applying and to 
figure out--and I think Newport News is doing a great job--how 
we can get more eligible parents to apply. But then you look at 
the drop-off between students who have actually applied for 
these services and the number of students actually receiving 
them. And in some cases, there is a huge disparity.
    We can, you know, attribute some falloff to family needs 
and circumstances changing and that kind of thing. But why is 
there a falloff between the number of parents who sign up and 
the number of parents who actually receive these services? So I 
think it is important as we move forward to examine some of 
these problems and some of the problems of parent access.
    I also refer to a lawsuit that was brought in Newark, New 
Jersey. We have appended that to the testimony. And then 
finally, we have a series of recommendations. I just want to 
highlight a couple in the short time I have left.
    One is that we don't believe we should have a rollover of 
funds from 1 year to the next, that this money really should be 
earmarked for SES and tutoring. We need much more emphasis on 
finding kids where they are and providing services in 
community-based settings or on school site.
    Finally, we also need much more monitoring and enforcement 
of this law at all levels of government starting with the 
federal government and down to the local school district level 
so that we can ensure that more students are served.
    And then finally, I did want to say for the record that we 
do have some concerns about proposals that would allow all 
districts to provide these services if they are in need of 
improvement. We only think they should be able to provide the 
services if they, in fact, can show they have the capacity to 
do so.
    And while we would support moving up SES to the first year, 
we would not support flipping with the transfer. We believe 
parents should have the right to choose either of those 
options.
    Thank you very much.
    [The statement of Ms. Piche follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Kildee. Thank you very much, Ms. Piche.
    Ms. Murray, you suggested that maybe we should flip--first 
of all, the members up here will be recognized in the order in 
which they appeared and then by their seniority.
    But, Ms. Murray, you suggested that we would flip. I think 
at the end of the second year now we have public school choice 
and the end of the third year, the supplemental. You suggested 
that that might be flipped.
    And I think Ms. Piche had some statements different from 
that.
    If both of you could comment on that.
    Ms. Murray. Yes. In Newport News, we have offered public 
school choice first and then supplemental services. But then in 
the pilot we were able to flip. The reason that we believe in 
Virginia that this is a more appropriate way is that in a 
school that needs improvement, they need to retain the students 
that are in the school and offer them many opportunities such 
as extra tutoring and have the involvement of concerned parents 
and willing parents to help with the school improvement 
process.
    If parents are allowed to pull children out and take them 
to other schools, then the capacity of the school goes down to 
make critical changes. Also, our parents are not as interested 
in public school choice as they are in supplemental educational 
services. And so, we want to provide those in schools that we 
can.
    Sometimes in public school choice, they are transferring to 
schools that are non-Title I schools that do not even have the 
resources that Title I schools do such as extra teachers and 
after-school tutoring and that type of thing. And that simply 
is due to a transportation issue.
    Chairman Kildee. Ms. Piche?
    Ms. Piche. Yes, thank you for the opportunity to respond.
    The Citizens' Commission, along with the Leadership 
Conference on Civil Rights, which is the broader coalition, has 
supported the right of parents to transfer their children to a 
better public school since the IASA. And under IASA, that was 
really not a requirement. It was more of an option for 
corrective action.
    The reason we support this--and by the way, we don't have a 
position on private school choice--is that we believe it is 
important for low-income parents to have the opportunity to 
transfer their child out of a school that is not working for 
their child and hasn't been working for a period of years 
pretty much on the same basis that everybody in this room can 
move their child to a school that works for their child. And we 
do support supplemental services.
    So I would say from our perspective we can certainly see 
accelerating the timeline for supplemental services and 
understand the needs it provides. But we do not want to limit 
the choices that parents have been provided, the rights they 
have under this law. The participation rates have been low. But 
if it is because parents are not interested, then there would 
not be that same impact on the school.
    We actually believe there is probably more interest in the 
right to transfer. But we also issued a report on the right to 
transfer in 2004 and found that, just like the SES provisions, 
there has been a real uneven implementation and enforcement of 
these provisions and that a number of districts have not 
effectively offered that right to parents.
    And just as a matter of educational quality, if a parent 
can find a better school for their child, that means the child 
is getting a full 6 or 7 hours a day of better instruction. And 
that may be, for that parent, much more value added than a more 
limited number of hours that their child would be in tutoring.
    Chairman Kildee. Thank you.
    Ms. Roberts, you testified that Boston links its 
supplemental educational services to other social supports to 
ensure that students receive comprehensive services and to 
accommodate working parents.
    Could you expand on that, how that works in Boston?
    Ms. Roberts. Boston Public Schools currently has over 
12,000 students enrolled in after-school programs that are 
school-based. In our school-based SES programs we have a 
school-based coordinator who works with the instructional staff 
and the principal to ensure that SES students are able then to 
transition into these programs, which are primarily enrichment.
    Some are academic improvement--so that the school day is, 
in fact, extended for parents. We don't have this issue of 
transportation problems with our working parents not being able 
to pick up their children early.
    Our elementary schools let out at about 3:30. Middle school 
is out at 1:20. We are able to extend the school day between 
5:30 and 6:00 by allowing transition into other programs.
    Chairman Kildee. Ms. Ashby, do states currently have the 
capacity and resources to effectively implement the law, 
supplemental educational services, and particularly in the 
rural areas?
    Ms. Ashby. Well, the state role in supplemental educational 
services is to select providers, to provide a list of providers 
based on adequate criteria for determining their ability to 
provide the services. States also encourage districts to notify 
parents and provide assistance to districts in doing that.
    Given the role that the states have, we didn't find 
anything to indicate they didn't have the capacity to do that. 
Where the rubber sort of hits the road is at the district level 
and the interactions between the district and the providers. 
And that is where there seemed to be more concern.
    Chairman Kildee. Do you find that more in the rural areas?
    Ms. Ashby. I am sorry; I didn't answer that part of the 
question.
    There definitely are problems in rural areas because, 
number one, finding the providers who are available to provide 
services. And also there isn't necessarily an adequate cluster 
of students needing services to justify providers coming in and 
offering those services. So the typical problems of rural areas 
because of their sparseness and lack of population occur here 
as well.
    Chairman Kildee. Thanks very much.
    Governor Castle?
    Mr. Castle. Thank you, Mr. Chairman.
    This panel is a wealth of information, almost to the point 
I don't know how to start to begin to ask questions. There is 
so much out there. But let me try to determine a few things.
    And, Ms. Ashby, let me start with you. We have heard 
differing rates here in terms of participation. But it seems to 
me that overall that the participation rates are low from a 
percentage point of view, even though there may be some 
exceptions, which we have heard about today.
    Can you explain to me why you think that is? I mean, is it 
a money issue? Is it an unwillingness of parents to be involved 
in this issue, which we have heard about a little bit here? 
What seems to be the reasons for that?
    To me, it would seem to be all positive that kids would be 
involved. And yet they are not necessarily.
    Ms. Ashby. It is a mixture of things. And let me point out 
that when we did our study, we were looking at the 2004-2005 
school year. And we haven't updated our numbers.
    The numbers that are the percentage participation we 
reported for that year was an increase over the prior year. So 
it is reasonable to believe that things have improved since 
then. However, the participation rates from everything I have 
seen and heard are still low. And that is due to a number of 
factors.
    Part of the problem is parental notification and parents 
understanding what SES is and what it provides. That is 
improving. The department is taking additional steps to help 
states. And states are helping districts do a better job of 
notifying parents and notifying parents in a way that the 
parents can under.
    Supplemental educational services conflict with other 
activities students might be involved in. They themselves 
perhaps prefer sports or prefer some type of other activity. 
Many students sign up for SES but don't continue through the 
school year, for example, probably in part for that reason.
    There are still some issues regarding accessibility and 
location of programs and problems with school districts being 
concerned about the use of their facilities or not allowing 
their facilities to be used. So actually getting access to the 
programs may still be an issue in some places.
    So there is a number of things.
    Mr. Castle. Ms. Roberts mentioned this other side of it. If 
the school district is supplying the SES services versus an 
outside vendor, has that made a difference in terms of the 
participation with respect to the students? Do you understand 
my question?
    Ms. Ashby. Yes.
    Mr. Castle. And if so, why? And what can we do to make sure 
the participation is higher with the outside vendors?
    Ms. Ashby. So you are asking if the school district is the 
provider?
    Mr. Castle. Right.
    Ms. Ashby. That is not something we studied. We didn't 
evaluate the pilots, for example. And others can respond to 
that better than I can.
    Mr. Castle. Maybe I should ask Ms. Roberts then.
    Ms. Ashby. But that is certainly reasonable. Yes.
    Mr. Castle. I mean, apparently, if I understand it, Boston 
does this. And have you found a greater participation rate when 
the school district is providing the services versus outside 
vendors? And why?
    Ms. Roberts. Well, I think there are several factors. One 
is that most parents are familiar with their school. And it is 
a caring and safe environment that they feel comfortable with. 
The other piece is that we have significant transportation 
problems.
    Our parents cannot pick up their children after school. And 
so, having a school-based program allows for an extended day 
where that fits their schedule so that more parents can, in 
fact, enroll. I would say those are the two main issues.
    Mr. Castle. What was the basic percentage breakdown, if you 
know, of kids receiving services from the district versus 
outside vendors in Boston?
    Ms. Roberts. Seventy percent of students in Boston selected 
the BPS as their program. We were able to accommodate 67. The 
remaining 33 percent have been placed in external programs.
    Mr. Castle. I mean, I don't know this for sure. But it 
seems to me if we had a panel of people here who were 
testifying on behalf of the outside vendors, they would argue 
that, you know, if you are inside a district, you have greater 
access to the students, greater ability to do these things, 
greater ability to coordinate schedules in schools, et cetera, 
all of which may be legitimate arguments to a degree.
    How do you manage that in terms of balancing both use of an 
internal school district system and outside vendors?
    Ms. Roberts. Okay. We try to offer every provider an 
opportunity to be in this school. This year seven providers 
requested to be school-based systems and were placed within 
schools.
    One of the issues is that there are capacity problems. Most 
of our schools have an after-school program. We have 12,000 
students enrolled district-wide. There is limited space. So we 
could not have all 24 of our providers in the school building.
    But we do help them to negotiate with the principals. We 
hold a principal-provider meeting. We also have a school site 
coordinator who is able to coordinate the services of the 
school, the school-based teachers as well as the other after-
school programs taking place within the building.
    So we make every effort to ensure that providers are 
allowed to be school-based if they would like to, but also to 
ensure that all the services are coordinated.
    Mr. Castle. Thank you, Ms. Roberts.
    I see that my time is up, although I suspect I only got 3 
minutes out of all that. I yield back, Mr. Chairman.
    Chairman Kildee. Thank you very much.
    The gentleman from Pennsylvania, Mr. Sestak?
    Mr. Sestak. Thank you, Mr. Chairman.
    I apologize that I missed part of the testimony, but if I 
might ask you a question. I was taken by what I had read, that 
you have acknowledged that Maryland is a unique case, to some 
degree, because of the number of districts. But at the end, you 
had talked about beginning a process of evaluating the 
effectiveness of SES programs.
    Can you speak about--since you have been somewhat 
successful, well, 19 percent to 68 percent access--what are the 
steps you are taking to assess the effectiveness, to evaluate 
it? And then stepping back, what would you, you know, humbly 
offer to other states to think about in that area that you are 
about to embark on?
    Ms. Chafin. Okay, thank you very much for asking.
    We have entered into a contract with Dr. Steven Ross from 
the University of Memphis. He is right now one of the premier 
people in the nation who is evaluating and offering guidance in 
the evaluation of SES.
    What we have done up to this point is simply look very 
carefully at the data we have been monitoring. We not only ask 
were they enrolled. We ask how often they come, are they really 
participating, what are the goals that you have set with 
parents. We do a site visit to every vendor in each district.
    We might not hit all of their sites in a district, but we 
have at least one site visit. And the basis of that, our 
specialists ask things like show me the signed goals that the 
parents have signed saying this is what you are working on. 
Show me the background checks. Show me what the curriculum is 
for this child. What are you doing to interface with their 
teacher?
    So we get that monitoring information that allows us to see 
what are really the things that are going on with the school. 
We ask that they do surveys of parents. Are they satisfied with 
the services? Are the schools satisfied with the services? We 
have been collecting that. We have not raised it up to the 
level of are these services actually helping kids be proficient 
in reading and mathematics.
    Mr. Sestak. Right.
    Ms. Chafin. That is what we hope to see this evaluation and 
have asked to see this evaluation do.
    Mr. Sestak. I am taken because, at least in the background 
I come from, you know, you can expect what you inspect. And 
that is why I am interested in this evaluation portion of it. 
But I was also taken that you made a conscious decision, the 
part of your testimony I heard, to take money from somewhere 
else in Title I to fund these two positions.
    Are you going to have to do the same in order to implant an 
evaluation system that adequately assesses the proficiency?
    Ms. Chafin. No, actually we are not because we went the 
contractual route with this. So it is taking money to do this. 
But it is not an issue of using up another staff position. 
Right now that is the big thing for us.
    As I said in my written testimony, we only have 24 
districts. So we have the luxury of picking up a phone and 
saying, ``Gee, can you help us with that?'' We can know the 
names of those people.
    But when it comes to looking at this issue about is this 
effective, we felt that we needed to have that external view 
that could be more objective.
    Mr. Sestak. Out of curiosity, what were the areas of Title 
I that you felt like they have import, it was less than this 
program?
    Ms. Chafin. You know, that is hard to get me to admit I am 
not doing everything as best I can. But I think that more than 
anything, what we lose is some of the statewide flexibility and 
support to low-performing schools and being able to have staff 
throughout and deal with other issues related to low 
performance. I think that is what suffers.
    Mr. Sestak. And, ma'am, thank you.
    In just the last few seconds, I didn't hear your testimony. 
I apologize. But I went through it. Could you just speak for a 
moment--because I am quite taken about English language 
learners and those with disabilities needing greater access. 
Your best options for that were?
    Ms. Chafin. We were very concerned about those two 
populations from a civil rights point of view and from an 
educational achievement point of view.
    Mr. Sestak. I agree.
    Ms. Chafin. We do have some recommendations. One of the 
recommendations is that there be an examination of the costs of 
providing services to students with special needs.
    Mr. Sestak. At the additional per pupil cost?
    Ms. Chafin. Right because right now every student who is 
eligible will essentially be eligible for the same dollar 
amount of services. But we know that some students are further 
behind than others, and some students need a tutor who is 
qualified to help them with math.
    But if the student does not speak English or if the student 
has an IEP, the tutor will also need to have some qualification 
or there may need to be additional personnel brought in just 
like we have in the regular school day. So I think that there 
should be an examination of whether it might make sense to 
differentiate the needs and then attach different cost options 
to those needs.
    Mr. Sestak. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Kildee. Thank you.
    The gentlelady from Illinois, Ms. Biggert?
    Mrs. Biggert. Thank you, Mr. Chairman.
    I have a question probably to Ms. Chafin and Ms. Roberts 
and Ms. Murray.
    And, Ms. Chafin, you mentioned in your testimony that there 
is considerable cost that we were just talking about. Are the 
school districts in Maryland spending the entire 20 percent of 
Title I on SES?
    Ms. Chafin. Some of them are, some of them are not.
    Mrs. Biggert. Okay. Do you have school districts that are 
spending more?
    Ms. Chafin. No, not at this point. I will say that in 
Baltimore City where we have a 99 percent participation rate, 
we have through an audit agreement resolution asked that they 
put money on top of their 20 percent to serve even more of 
their eligible students. And that, I believe, is what has 
pushed up their rate to the 99 percent, their attempt to 
achieve beyond that.
    Mrs. Biggert. Okay.
    Ms. Chafin. I think they do put in money for the monitoring 
and the support at the school level that is coming out of other 
pieces of their money.
    Mrs. Biggert. Okay.
    Then, Ms. Roberts, your school system is on the pilot 
program, as is the Chicago Public Schools. And I have dealt 
with the Chicago schools a lot. And number one, they really did 
a reformation of the schools prior to No Child Left Behind, 
except that they reversed a couple of things, which I thought 
was very important.
    Number one was that they wanted to do the tutoring in the 
supplemental services in the first year rather than in the 
third year and have the transfer and then the reconstitution of 
schools of the school wasn't working, bring in a whole new 
administrative team and teachers. They finally got a waiver 
from the Department of Education as far as their tutoring 
because there were so many students that were eligible for it 
that they couldn't provide the services by the private vendors.
    And it turned out that the private vendors--and I wonder if 
this is happening in your school district, too. The private 
vendors were actually hiring those same teachers from the 
school to be the tutors but at twice the cost of what it would 
cost the school system to hire the same tutors, the school 
teachers after school. Number one, when a school is failing and 
you want to provide the SES, does that mean that every student 
is eligible for the tutoring?
    And I think, Ms. Murray, you said that you try and do the 
students that are below grade average first that qualify. But 
then do you do all the students that are within either the sub-
groups or within the whole school district that are provided 
with tutoring?
    And I am asking the three of you.
    Ms. Roberts. The law requires that we serve lower income 
students first. The demand for our SES program has not yet 
exceeded our capacity to provide the program. So we have not 
had to rank students. But in the case that we would, we would 
do it based on low-income and then student performance. We 
would probably look at those groups that were failing in terms 
of the state assessment.
    Mrs. Biggert. So it could be though that if they are low-
income they could be the students that are actually performing 
at grade level but because they are low-income they are the 
first to qualify.
    Ms. Roberts. Yes. And we have a number of students who do 
not qualify in terms of income eligibility but do qualify when 
you look at the student performance. This is particularly true 
of our special education population.
    Mrs. Biggert. Okay.
    And, Ms. Murray, is that----
    Ms. Murray. I would agree with that. We had the same 
situation, a situation where the low-income students are doing 
fine and do not necessarily need the supplemental services but 
higher-income students are not doing well and would benefit.
    Mrs. Biggert. Okay.
    Ms. Roberts, do you still find that there are a lot of 
students that are not getting the services because of the 
availability of funds?
    Ms. Murray. We have not exceeded our capacity of funding.
    Mrs. Biggert. You have not?
    And you have not, Ms. Roberts?
    Ms. Roberts. No.
    Mrs. Biggert. Well, Chicago certainly has.
    Ms. Chafin?
    Ms. Chafin. Again, except for Baltimore City, all of our 
systems still have money available within that 20 percent to 
serve more students.
    Mrs. Biggert. All right.
    Do each of you think it makes sense to use the supplemental 
services in the first year rather than the third year?
    Ms. Murray?
    Ms. Murray. Well, certainly, our experience in Newport News 
has shown that more parents have participated in supplemental 
services than did public school choice.
    Mrs. Biggert. Okay, okay.
    Ms. Roberts?
    Ms. Roberts. I think you are going to find that the answer 
will vary from district to district. In Boston we have had 
continually declining funds across all of our NCLB grants. And 
so, we have been left inclined to start SES in our first year 
when we already have a school choice program.
    Mrs. Biggert. But in your school system do you really have 
other public schools that are available to take the numbers 
that would want to transfer?
    Ms. Roberts. We don't have surrounding districts. But we do 
have schools within the district.
    Mrs. Biggert. Okay.
    Ms. Chafin?
    Ms. Chafin. I think we have found that we often are limited 
in the number of schools that are available for them to 
transfer to. And most of our parents very much want their kids 
to stay in their neighborhood school with their friends. So we 
at the state would love to have the option of saying district 
by district and evaluating whether or not that would be there, 
whether it would come first.
    Mrs. Biggert. Thank you. Thank you.
    I yield back, Mr. Chairman.
    Chairman Kildee. Thank you very much.
    The gentlelady from California, Ms. Woolsey?
    Ms. Woolsey. Thank you, Mr. Chairman. Great panel.
    Thank you so much, all of you.
    Every time we go through this, we learn more. But we are 
learning more every day with No Child Left Behind. And we know 
that. And that is what we need to be basing our reauthorization 
on is what we have learned from the last 5 years.
    Overall there is no question that students are best off 
if--and that is the operative word, if--their local school can 
meet the individual needs of the child and leave no child 
behind. So that has got to be our goal. And I think we can--and 
you have given us such a menu of good ideas here today--pick 
the best from what each one of you has offered to us as 
recommendations for our reauthorization.
    What I want is that SES availability be there but not just 
in numbers, but in quality. And I like the idea of school 
choice. But I prefer that that school choice be later. I really 
think that is punitive when we--maybe a school will be so bad 
off that kids absolutely need to leave that school. But if that 
is so, we shouldn't have that school. What is the matter with 
us, the richest nation in the world?
    But I really think we do a great disservice to have a 
school in need and then have their school population leave, 
particularly those whose parents are more active and motivated. 
They leave and leave that school with the kids that need the 
most help and less money because the kids have left. None of it 
makes sense to me.
    So what I want us to do is pick the best of all these 
ideas. And Newport News--didn't I read a book about Newport 
News?
    Anyway, it seems like you have got so many good ideas, Ms. 
Murray. So what I would like you to talk to me about is how you 
measure your SES vendors and teachers and how you attract them 
because we expect our teachers to be the best qualified and 
certified and we are measuring them. How do we make sure that 
these services that we bring, the tutoring, et cetera, can 
measure up to the same standards?
    Ms. Murray. Currently I think it is very difficult with the 
SES providers to know the quality of the tutors because they 
are not required to have certified teachers or licensed 
teachers or teachers who meet the highly qualified state 
standard.
    I believe that is something that would improve SES if that 
were required because it has been our experience, the 
complaints that we have had from parents have been because of, 
as I mentioned, tutors not showing up, tutors using 
inappropriate language or discipline methods, tutors just going 
over homework with the students, not doing an actual teaching 
lesson, those types of things. I believe that if there were 
higher quality of professional in those positions than we may 
not have the problem.
    I know that some companies do require licensed 
professionals. But that, again, is on an individual basis.
    Ms. Woolsey. Would anybody else like to respond to this? 
Like how are we going to have enough tutors? Is that what we 
expect?
    Ms. Murray. Well, certainly, quality is of utmost 
importance. And as I said earlier and as we have explained in 
our statement, quality starts at the state level because it is 
the states who certify the providers and provide a list that is 
available to the district for making it available to parents to 
select the actual providers.
    Monitoring and technical assistance are also very 
important. Monitoring by the states and also in some instances, 
by districts of providers is absolutely important for 
accountability. There are providers who have been taken off the 
list. That should certainly be pursued in instances where you 
have providers that are not doing the job. That has to be done 
in order to have a quality system.
    Ms. Woolsey. So, Ms. Chafin, do we look at then every 
school year in the AYP tests? Is there a way to say, well, 
these kids still aren't measuring up and they are going to this 
particular service or this is how we are tutoring them versus 
the kids that are measuring up?
    Ms. Chafin. We certainly encourage the vendors to work 
directly with the school so they know what that child needs. 
And that is one of the things we monitor. We select our vendors 
with a very rigorous process. Our last vendor group we had 33 
applications. We approved 10. So you started at all of those 
places, I think, but you have to go back.
    I am still looking at this evaluation we will have in place 
that will link vendors and students who participate in their 
program to how those students are achieving on the Maryland 
school assessment. That to me is where we are going to have the 
true information about effectiveness of the programs. But you 
have got to not just choose them rigorously.
    You have got to grow them to some extent and make sure that 
you are looking-we give technical assistance on how do you 
write goals and objectives. Some of these incredibly well-
intentioned vendors just don't have those basic skills. So we 
are still working at that level. But we screen out a lot more 
than we allow through.
    Ms. Woolsey. Okay. Well, my time is up. But I think that is 
one of the things we have to look at in No Child Left Behind 
reauthorization is how do we evaluate.
    Ms. Chafin. Absolutely.
    Chairman Kildee. Thank you.
    The gentleman from Florida, Mr. Keller?
    Mr. Keller. Well, thank you, Mr. Chairman.
    And let me begin--Mr. Chairman is a good friend of mine. 
But I just correct any impression that folks may have in 
mentioning the reductions in the funding for Title I. Since the 
No Child Left Behind Act was passed, Title I funding is 
actually up 46 percent nationally from $8.7 billion in 2001 to 
$12.7 billion in 2006. In my home state, it is up 58 percent.
    And I say that just because I hear from a lot of folks back 
home the same thing. Because it is authorized at a certain 
amount. If it is not appropriated to that amount, people think 
it is a cut when, in fact, it is not. The funding is up 
substantially. It doesn't mean we can't do better.
    But, Ms. Roberts, I am going to direct all my questions to 
you just because your issue is the one that I am really most 
interested in. And that is the private versus public providers 
of tutors.
    So let me begin by asking you--give me the name of an 
elementary school in Boston.
    Ms. Roberts. Gavin.
    Mr. Keller. What is that?
    Ms. Roberts. Gavin.
    Mr. Keller. Gavin, all right. Let's say that we have a 2nd-
grader named Johnny at Gavin Elementary School in Boston. And 
he is having problems reading, and he qualifies for extra 
tutoring help. If the district is the provider, would that 
tutoring take place at Gavin Elementary School?
    Ms. Roberts. Yes.
    Mr. Keller. Okay. If a private vendor is the provider, 
would the tutoring take place at Gavin Elementary School?
    Ms. Roberts. It would depend on the provider. The provider 
selects their location and form partnerships with particular 
principals. And a number of our providers have their own sites.
    Mr. Keller. Okay. So in some cases, yes, in some cases, no?
    Ms. Roberts. Yes.
    Mr. Keller. Okay. If the district is the provider, would 
the teacher for Johnny in providing the tutoring likely be a 
teacher from Gavin Elementary School, although different than 
his regular classroom teacher?
    Ms. Roberts. It is possible. We recruit our highly 
qualified teachers that have a track record of high academic 
performance for the program. They can be from within the school 
or from other schools.
    Mr. Keller. Okay. If there is a private SES provider, would 
it also be possible that the tutor might be a teacher at that 
same Gavin Elementary School?
    Ms. Roberts. It is possible. In many cases we are finding 
that the staff can range from a high school student to a highly 
qualified teacher.
    Mr. Keller. Okay. Let's assume for a second because it is 
possible under both circumstances that Gavin Elementary School 
will provide Johnny with some extra reading help and it will be 
from a teacher at Gavin Elementary School. What would be the 
difference in pay that that teacher would receive from the 
district versus what that teacher would receive from a private 
provider?
    Ms. Roberts. That actually is very difficult to gauge. The 
district provides contractually about $38 per hour. Private 
providers range from anywhere between $15 to the same amount, 
$38 per hour.
    Mr. Keller. Okay. This is what I am getting at. In your 
testimony you said that the district provides these SES 
services at a rate of about four times cheaper. Right?
    Ms. Roberts. Yes.
    Mr. Keller. I am trying to decide, well, if the district 
provides the tutor who is a public school employee, does that 
person get $10 an hour? And if the private sector vendor is 
providing that same teacher, does that teacher also get $10 an 
hour and the private vendor pockets the rest as profit? Or is 
that private vendor saying, ``Hey, work for us and we will pay 
you $30 an hour?'' Do you have a sense of how that works?
    Ms. Roberts. I would say most private providers--very few 
private providers use teachers. But those who do generally pay 
slightly under what the district is charging. And they do 
charge the full per pupil allocation of $2,400. Some of those 
may relate to operational costs. But some of it definitely has 
a profit issue.
    Mr. Keller. Okay. Have you looked at the data to see if the 
test scores are any better in the Boston Public Schools with 
the students who got the public school vendors versus those who 
got the private sector tutoring?
    Ms. Roberts. We have actually been trying to do an 
evaluation. We have had some difficulty getting data. We have 
been doing a pre and post test. We have some data on the 
district program but not much on the external provider programs 
because of their participation rates.
    Mr. Keller. But you are looking into still an open 
question. My time is about to wrap up, so let me just make one 
final comment. I see that you wanted to use about 10 percent of 
the funds for administrative costs and right now you are not 
allowed to use any for administrative costs?
    Ms. Roberts. Yes, sir.
    Mr. Keller. I have noticed throughout No Child Left Behind 
we have various provisions that say 95 percent of the funds 
shall be used in the classroom. And would you be comfortable 
with 5 percent of the funds being used for administrative 
purposes? That is at least better than zero.
    Ms. Roberts. I think 5 percent would be better than none, 
yes.
    Mr. Keller. Okay.
    Mr. Chairman, I will yield back the balance of my time.
    Chairman Kildee. Thank you, Mr. Keller.
    The gentlelady from Hawaii, Ms. Hirono?
    Ms. Hirono. Thank you, Mr. Chairman.
    Is it Ms. Piche? Am I pronouncing your name correctly? She 
testified--and this is for all of the other members of the 
panel. Ms. Piche's testimony says that the students who are 
furthest behind tend to be poor and in one or more of other 
sub-groups. They are usually non-white, disabled, or are 
learning English.
    Would you agree that those are the students who are the 
furthest behind?
    Ms. Ashby. I would. Our work would corroborate that.
    Ms. Hirono. All of you would agree?
    Now, these are groups that have been identified long before 
NCLB ever got put in place that generally they needed more 
help. This is why we have programs such as Head Start, ESL. 
There is also another federal law that requires special needs 
students to receive equal educational opportunities, also not 
particularly well funded by the federal government.
    So that being the case, do you think that we need to go 
through all of the testing required under NCLB in order to 
identify that these groups of students need special help?
    So in other words, since these groups were already 
identified, can't we just get quality SES to these students 
without going through all of the testing that they have to go 
through under NCLB?
    Ms. Ashby. I can respond to that. The testing serves a 
number of purposes. One is to determine how students are 
achieving the content standards for the academic curriculum. 
And that is all students, what progress they are making and to 
what extent within a district the district is likely to meet 
its goal of being proficient in math and science by 2014.
    Also testing provides information to teachers and to school 
personnel about what is needed to help students progress. Where 
does the instruction need to be targeted? What areas are 
lacking in the student's knowledge. So there are a number of 
reasons for having assessments in addition to identifying poor 
and minority students who need help.
    Ms. Chafin. I think we most certainly could identify those 
students that need help without the test. However, the test to 
me is what makes the school and the districts accountable for 
the quality of work that is presented to that student. SES is 
one small piece of school improvement.
    If all you do is SES and everything stays the same, I don't 
think you will see the effect. But as it is folded into a full 
school improvement plan that has the accountability of the test 
at the end, I think that we are in Maryland having discussions 
about students that we may never have discussed as fully as we 
do now.
    Ms. Roberts. I would say the district of Boston is not 
opposed to the testing. I think what we take issue with is the 
fact that growth is not factored into AYP. For example, Boston 
and San Diego performed similarly on the national assessment of 
core educational progress. But Boston has 60 schools identified 
for having failed to make AYP for 3 or more years while San 
Diego has 15 schools.
    There is clearly a wide variety across the states in terms 
of the level of rigor and the starting lines for sub-groups. 
And so, until you address that and develop a national standard 
so that you are able to compare one state to the next, there 
are some problems with this model.
    Ms. Murray. I do agree that NCLB has brought accountability 
to school districts and to states for those sub-groups of ESL 
and special education students. I do think that growth models 
need to be taken into account.
    Ms. Hirono. Did you want to add something?
    Ms. Piche. I served on the secretary of education's growth 
model peer review process. And I would say that growth models 
are going to be a very important component in moving forward. 
But the bottom line is that the tests are needed for purposes 
of accountability. And, in fact, what you find is that you can 
also use these assessment results to identify schools that are 
doing a good job.
    For example, several years ago, we identified a school in 
Prince George's County in Maryland where minority males who 
were also low-income were doing phenomenally well in science. 
So that school had been written up as an exemplary school for 
other schools to look at in terms of what are they doing, why 
is it that their scores for this particular sub-group of 
students were so much higher than the rest of the state.
    Ms. Hirono. I am probably going to want to follow up with 
some of you regarding where I am going with these questions 
because, yes, I agree that at some point we ought to assess 
whether or not the supplemental services is having a positive 
impact. But I think what I am concerned about is, you know, how 
do we get to that point in the least costly and yet effective 
way.
    Thank you.
    Chairman Kildee. The gentleman from Puerto Rico, Mr. For- 
tuno?
    Mr. Fortuno. Thank you, Mr. Chairman. And I want to thank 
you and certainly Governor Castle and the staff for today's 
hearing.
    But most importantly, I want to thank all five of you. And 
it has been a truly interesting and enlightening session for us 
as we move forward in trying to reauthorize No Child Left 
Behind. I know that educational standards and performance are 
major challenges that we are facing as a committee.
    And, Mr. Chairman, you are doing a superb job in steering 
us in the right direction and trying to understand what is 
being done out there, best practices and so on.
    Unfortunately, in my district, the district of Puerto Rico, 
we have been falling way short across the board in terms of the 
educational standards and the implementation of NCLB standards. 
I had mentioned earlier on March 7th the U.S. Department of 
Education had sent a letter to the Puerto Rico Department of 
Education stating that it is in violation of NCLB by failing to 
submit AYP determinations in a timely fashion. And Puerto Rico 
was fined for that.
    Now on March 21st, the U.S. Department of Education sent a 
subsequent letter to the Puerto Rico Department of Education, 
where the department stated its concerns regarding ``the 
alignment of Puerto Rico's academic achievement tests to grade 
level content standards and the performance level descriptors 
for Puerto Rico alternative evaluation tests.'' And it states 
that actually Puerto Rico may lose 50 percent of the Title I 
part A administrative funds for fiscal year 2006.
    And, Mr. Chairman, I ask unanimous consent to introduce 
into the record the March 21st letter sent by the Department of 
Education, if I may.
    Chairman Kildee. Without objection.
    [The letter follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Fortuno. Thank you very much.
    And in preparing for today's hearing for SES, the 
department was unable to furnish us adequate data on the 
program implementation in Puerto Rico prior to this hearing. I 
am certain that we are facing the same concerns and same 
problems.
    The first question that I have for Ms. Chafin--if you could 
elaborate further in your division service contracts with 
outside or in other jurisdictions, as you were mentioning. How 
do you structure that, and what exactly are you doing? And 
maybe the second question there--will you be willing to do the 
same thing for Puerto Rico?
    Ms. Chafin. You are talking about our external evaluations?
    Mr. Fortuno. Exactly, yes.
    Ms. Chafin. Yes, again, we already have a very strong 
database under the direction of Dr. Jane Fleming, who is our 
coordinator. We actually helped the U.S. Department of 
Education construct the guidance around the elements of a 
monitoring system. So when that guidance came to us last year, 
we were already collecting those pieces. So that is a very 
essential part.
    You must know who is participating, when they are 
participating, and you must have that close tie with the 
vendor. What we are adding on with this external evaluator is 
that connection to achievement and being able to look at--we 
have vendors who do one-on-one tutoring with students.
    We have vendors who go into homes. Then we have vendors who 
work at schools. And they work with groups of five to six. We 
have so many different configurations of this that we feel that 
we need this external independent evaluation of it to make that 
connection.
    Mr. Fortuno. Okay.
    Ms. Chafin. So that is the structure that we are having 
right now.
    Mr. Fortuno. Okay, I see. I have a feeling that your 
student body is pretty similar to mine in the sense that it 
tends to be not rural, but more based on cities. And you were 
probably facing some of the same challenges. Could you 
elaborate even further on how you brought up those numbers in 
terms of participation-wise and otherwise?
    Ms. Chafin. One of the tools that a state has is to look 
each year at the Title I carryover money. Right now you get 20 
percent of your funds. And then when the 15 months are over, 
the state, at least in Maryland, we have exercised the option 
to say we see how hard you are working, and we see the 
improvement in your participation rate, your attendance, your 
removal of barriers for parents. So we will this year allow you 
to carry over that money into your general Title I funding.
    We have also said in this year we do not see that you have 
made that effort, you have actually gone down in participation. 
So we are asking that you carry over that money and leave it 
earmarked for SES.
    Mr. Fortuno. Okay. Specifically for SES. Okay.
    Ms. Chafin. Yes. So we feel that each time we have done 
that we have seen an increase in participation and an increase 
in the communication. They are doing a really good job. I don't 
want to make that sound like districts don't care until you 
push them. But they need to understand the seriousness and the 
consequences of it sometimes. But they also need you there 
holding their hand to address these issues.
    We never just say go away and do this better. We always say 
what can we do to help. What are the issues here?
    I have to point out that one of the biggest barriers to SES 
participation is the fact that these children at ages, you 
know, 4th, 5th, 6th and 7th grade don't see this as something 
that is really good.
    Mr. Fortuno. I know. I am the father of triplets, so I know 
what you are talking about.
    Ms. Chafin. They see this as something they are being sent 
to. We are trying very hard to say--and I am a baseball fan. 
When Cal Ripken had a batting slump, he took extra batting 
practice. Okay? We are trying to instill in them you have some 
control here. You go and snatch all the education you can out 
of every opportunity. That is missing. That is not really the 
atmosphere that SES is in.
    Mr. Fortuno. Yes.
    Ms. Chafin. So it is touching all of the people involved. 
And we would be glad to help you.
    Mr. Fortuno. Thank you. Thank you again.
    My time is up. But again, I commend you, all five of you.
    And, Mr. Chairman, again, likewise, thank you.
    Chairman Kildee. Thank you very much.
    The gentleman from Maryland, Mr. Sarbanes?
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Mr. Chairman, I had the opportunity to work at the Maryland 
State Department of Education for 8 years, part of that time 
with Ms. Chafin.
    And I am reminded again of why I learned so much from you 
when I was there from your testimony today.
    I want to thank everyone on the panel for your testimony.
    I had a couple of questions. So I will jump right into 
them.
    First of all, what is your view--and anyone can answer this 
question if they would like. But what is your view on what the 
minimum qualifications should be of the instructional personnel 
that are in these SES? And we have talked about how if they are 
going to be teachers, then they probably ought to meet the 
highly qualified standard.
    But we have also pointed out that in many instances they 
are not teachers. And I am just trying to get a sense of where 
you think the standard ought to be and, I guess, where you 
think it is trending right now.
    So we could start with you, Ann.
    Ms. Chafin. Okay. I think it is trending toward vendors 
using highly qualified teachers. It is not there yet. And 
because there is no mandate and because of access, school 
systems are not able to get all the highly qualified teachers 
they need. So the vendors would suffer from the same 
situations.
    I think that it is the more qualifications with the tutor, 
the better off we are. But I guess I would hold out one little 
piece. I have a 16-year-old. And sometimes if she hears it from 
a 17-year-old, she is more willing to listen to it.
    So I think there is a role involved here for support and 
tutoring that may not always fall under that characteristic. 
But I do think our vendors are moving more in that direction. 
And I think that our districts are much more comfortable when 
they know that those actual teachers are the highly qualified 
teachers.
    Mr. Sarbanes. Any others agree with that?
    Ms. Roberts. Yes. I would not say that the tutors have to 
be teachers. But they should meet the definition of a highly 
qualified teacher. Particularly in Massachusetts we have a 
number of colleges and universities where our providers can 
draw from.
    This is particularly important for us for our English 
language learners and our special needs students because what 
we are finding is that a number of our providers are not 
equipped to provide services for them and eventually drop them, 
and then we have to take them into the district program where 
we are equipped to do so. So it would be very helpful 
particularly when you are looking at those two categories if 
the tutors were at least meeting the definition of highly 
qualified, even if they weren't teachers.
    Mr. Sarbanes. Well, let me ask you--let me follow up on 
that because working with systems like the Baltimore City 
Schools--and I know other urban districts are facing huge 
shortages in qualified teachers, unless things have changed 
dramatically in the last couple of years.
    And so, aren't we heading towards a situation where we are 
going to have all these private SES providers competing of the 
same pool of qualified candidates? And isn't that going to 
create more pressure and problems potentially for the 
traditional districts in terms of where they are getting their 
teachers?
    Ms. Roberts. I think depending on the availability of 
individuals within your city. As I said, Boston is very 
university-rich. And so, we have a number of higher education 
programs from which our providers can withdraw tutors as well 
as our district. That may not be the case in other cities and 
other states. But it most certainly is an option.
    Mr. Sarbanes. Yes.
    Ms. Piche. You know, there probably is going to be some 
regional variation in your available labor market. But what we 
know about the teaching population in this country is that many 
highly qualified teachers are not actually teaching. There are 
many teachers who have left the profession for a variety of 
reasons. There are also--I think we can't rule out the 
possibility of people who have credentials and have 
capabilities to perform tutoring under the supervision of 
highly trained, capable super-teachers, if you will, the folks 
who administer and run these programs.
    But we know from the research about effective reading 
programs--I will take the success for all program, for 
example--is that the program can actually be run--and its one-
on-one tutoring and small group tutoring can be done 
successfully by highly trained paraprofessionals. And we put 
this program into place in a school district where we worked, 
Fort Wayne, Indiana.
    It was highly successful. It was actually also evaluated by 
Steve Ross from the University of Memphis. So I think as we get 
more of the results from these evaluations, we know more about 
the quality and what is working and what is not, we will 
probably have better data about that. But I would say across 
the board that it might not be realistic to expect that every 
single tutor would have those highly qualified credentials as 
they exist now under NCLB.
    I guess I would also say----
    Mr. Sarbanes. I just lost the yellow light, so I want to 
get a question in real quick before the chairman takes my time 
back.
    And that is particularly in these situations where the 
district is the provider, which is a fascinating sort of in 
some ways Kafka-esque result.
    Ms. Chafin and others, Ms. Roberts, do you ever wake up in 
the morning and scratch your head and say we are sort of 
creating an alternative shadow school system in a way that has 
these special features to it that make it more attractive in 
many ways but, we have got the same teachers providing the 
services, it is in the same building, et cetera? And where is 
that heading? What are the implications of that?
    Or is it okay because you are sort of jostling the system a 
bit and, yes, people are walking out one door and coming back 
in the other? But maybe it heightens the awareness of the kinds 
of services that need to be provided and creates other dynamics 
that are positive. So if you could just quickly respond to 
that.
    Ms. Chafin. I guess I do have concerns about that. 
Currently in Maryland we have two schools, districts that are 
in improvement. And they are not allowed to offer SES services. 
I think it is an issue of training, however. If I were 
confident that a teacher participating with a vendor would 
receive extra-professional development that might actually make 
them do a better job during the day, too, this would be more 
palatable.
    Mr. Sarbanes. Ms. Roberts?
    Ms. Roberts. Boston is selecting its most highly qualified 
teachers for its program so that our instruction is in the 
after-school SES program is hopefully at a higher quality than 
what is offered, in some cases, in the school day. It is also 
more connected because you are able to ensure that the SES 
teachers are connected with the school day curriculum and with 
the school day teachers.
    In terms of how that affects the school districts and our 
ability to work with external providers, I think that we have 
come to a happy medium where we are able to provide services, 
we are able to do it in a highly qualified way. We are able to 
show some improvement.
    And we have been looking at our preliminary data. We see 
that students that attend 75 percent or more of the time in the 
district program do show improvement. We cannot say the same 
for external providers because we don't have enough data.
    Mr. Sarbanes. Thank you.
    Chairman Kildee. Thank you.
    The gentleman from Arizona, Mr. Grijalva?
    Mr. Grijalva. Thank you, Mr. Chairman. And thank you for 
this excellent panel.
    Let me just follow up on the point that you were just 
making, Ms. Roberts. Have Boston Public Schools done any 
monitoring to see how well private providers--their tutoring 
program is matching up with the classroom strategy, with the 
curriculum? Is that monitoring being conducted?
    Ms. Roberts. The state requires us to approve all of the 
students and parents home contracts, which do outline what the 
student will cover. In most cases, there is very little 
alignment on the front end between what is happening in the 
school and what is happening with the SES provider, although we 
do provide that information. Most providers offer a pre-
packaged program which they are following. And so, they are 
using their own pre and post-assessments by which they offer a 
student success plan.
    Mr. Grijalva. Wouldn't a continuum of instruction be good 
in terms of if we are trying to bring these kids to a certain 
level? I have always heard that a continuum is a very important 
factor in that improvement.
    Ms. Roberts. Yes. We most certainly would like to see 
better alignment between what is going on in the school day and 
what is going on with the SES providers. We found that that is 
difficult to do when you already have a pre-packaged program.
    Mr. Grijalva. Got it. I think the other one I was going to 
ask you about, if I may, Ms. Roberts, is how much does your 
school district as an example spend on disseminating all the 
SES information about the providers in the district. How much 
does that cost?
    Ms. Roberts. This year we spent nearly $100,000. We did 
newspaper advertisements. We have done things on our cable 
channel. We sent packages home through the school and by mail. 
We have held SES provider fairs for parents. And so, we have 
tried to reach out to parents through a number of ways as do 
most large urban districts. And that data is available at the 
end of my written testimony.
    Mr. Grijalva. Okay. And I think one more and then I will 
shift to another question.
    Ms. Piche from the Citizens Commission on Civil Rights--I 
think we heard her say or in her testimony that she believes 
school districts must make a case to the Department of 
Education that their involvement does not detract from the 
school improvement needs.
    You cite Boston Public Schools commendable record on 
participation and serving all eligible children at a lower cost 
than the private providers. Do you have any comments about 
making the case statement that Ms. Piche made, number one? And 
number two, do you know the other four districts that are in 
the pilot program if they have had the same record that you 
have in terms of participation cost?
    Ms. Roberts. I cannot answer the question about the other 
four districts. I believe that for most of us our participation 
rate meets at least the national standard, if not higher.
    What was your first question again? I am sorry.
    Mr. Grijalva. The first part of the question having to do 
with the comment that before getting involved in the SES 
improvement services that a case must be made to the Department 
of Education that you are not detracting from the improvement 
plan.
    Ms. Roberts. In Massachusetts our state department works 
very closely with us to ensure that the quality of the program 
is there but also that the schools are able to continue with 
their school improvement process. And so, while it is not 
explicitly done, it is implicitly done.
    Mr. Grijalva. Thank you.
    Mr. Chairman, I think Ms. Piche made a very good point. And 
it dealt with the two groups of students that all of us know 
are not doing as well under the mandates. And that is English 
learners and special education.
    Let me use the example of my state. There are 33 providers. 
I think all but three are private providers in the state of 
Arizona. Every one of them claim that they have expertise in 
being able to work with children who need a second language 
acquisition. From my information, there is no way to verify 
that expertise.
    I mention that, Mr. Chairman, because I really think that 
in those two populations that private providers that are part 
of this SES improvement process have to be monitored and 
evaluated on English learners, special education, outreach, 
expertise of their staff, parent communication. Because if that 
is supposed to be a support base for a lot of these children 
and it is not working and all you need to do, at least in the 
state of Arizona is check a box that you have expertise in the 
area, I don't think that is enough.
    And I appreciate the comments that the witness made because 
I really feel that that is a glaring gap in holding these 
private providers or any provider of SES services accountable 
for reaching every one of the kids that we are supposed to be 
reaching. And I yield back. I have no further questions, Mr. 
Chairman.
    Chairman Kildee. Thank you very much.
    The gentleman from Texas, Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Mr. Chairman.
    And thank you to the presenters here today on our panel.
    I have always been a very strong proponent of parental 
involvement. And at every level, pre-K through the 12th I think 
that where we see parental involvement, those children seem to 
do better than those who do not have parents involved.
    My question to Ms. Chafin is, could you describe your 
efforts to ensure that limited English proficient parents 
understand the opportunities available for supplemental 
services?
    Ms. Chafin. I certainly can. I would never say to you that 
we are doing everything that could possibly be done. But we do 
translate all of our documents into the five major languages in 
Maryland. We have community outreach members in each of our 
districts that are making concerted efforts to have personal 
contact with parents.
    We were just shown--we had a parent advisory council 
meeting yesterday for the superintendent. We had a wonderful 
presentation where the woman talked to us about we don't really 
send too much written. It is verbal. It is phone. It is having 
translators. It is having interpreters there for people so that 
they can understand all of the issues available to them.
    You must have those printed materials, but you must also be 
able to contact them where they are in community centers. And I 
think across Maryland you can find that happening. I won't tell 
you that it is happening everywhere that it could. But it is 
increasing on a regular basis. We must get to the parents where 
they are so they understand the options.
    Mr. Hinojosa. Can you tell me the difference in the daily 
attendance, average daily attendance in the schools in Maryland 
where we have a high level of parental involvement versus 
school districts where we don't have it?
    Ms. Chafin. I am sure there is a difference. We do not have 
statistics there, but we are confident through our work with 
our Maryland Parent Advisory Council that there is more to be 
done in making sure that parents understand access to schools.
    I have to tell you that, in working with these, they have 
come clear with, if there is nothing else that happens, make 
that school secretary be nice to us when we come in.
    Mr. Hinojosa. Well, there are some folks in the 
administration which are not friendly to parents. And I can say 
that the private providers who are offering the tutoring, it 
seems to me, at least from parents that have spoken to me about 
this, that they aren't getting enough information that would 
make it easy for them to identify the tutors for the core 
courses for their children to do better on standardized tests.
    What can you all do to improve that?
    Because the money is there. It is not being utilized. And I 
believe that there must be a problem. It could be language. It 
could be communication. But somehow the parents that are 
involved are having trouble getting the tutors.
    Ms. Chafin. For one thing, we would follow up on any report 
of that individually. But again, it is pushing at all of the 
points, making sure you have the materials translated, making 
sure you have people who are instrumental in the different 
international communities who themselves understand SES and can 
teach that. It is making sure that the school itself, which is 
the parents' first thought for anything, understands those 
services.
    Mr. Hinojosa. Know that that is going to be important if we 
are going to improve the issue that we are working on today on 
No Child Left Behind.
    My last question to Cornelia Ashby. Can you tell me what 
percentage of students are receiving supplemental services in 
middle schools and what percentage are receiving those 
supplemental services in high school?
    Ms. Ashby. I do not have that information. I don't know if 
that is something that I could get. And perhaps----
    Mr. Hinojosa. Would you try to get me an answer in writing 
to my question?
    Ms. Ashby. I will try to do that, yes.
    Mr. Hinojosa. And how have states and school districts 
worked to ensure that appropriate services were available for 
secondary school students? And what has been most effective in 
serving the population of the English language learners so that 
they could do better on standardized tests?
    Ms. Ashby. Let me say with regard to evaluations of all 
types they are--they haven't been done for SES. That is true 
for English language learners as well as other students. There 
are states that are in the process of trying to do that. Ms. 
Chafin has talked about in Maryland.
    The difficulty is in having the data available and 
controlling for other factors that can influence a student's 
progress. And that is the difficult thing that hasn't been 
overcome. The Department of Education has stepped up its 
efforts to help states in this regard. It is too soon, or I 
don't know how effective they have been.
    There is a special center within the department that is 
providing assistance this school year to 16 states who have 
asked for it. And that should improve states' ability, at least 
to collect data. But controlling for other factors will still 
be difficult. So I can't answer your question with regard to 
limited English proficient students or any other group of 
students right now.
    Mr. Hinojosa. That seems to be the answer on so many of the 
problems that we are having, that they don't have the data, 
they don't have--they are not tracking it. And I think that No 
Child Left Behind after 6 years has done very poorly and those 
excuses that there isn't enough data--there should have been 
from the very beginning when you started having complaints from 
states, including Virginia and Texas and California. There 
should have been somebody in the department who would have 
said, well, then let's start collecting data so that we can 
track it and see where the gaps are.
    Ms. Ashby. The difficulty is the department's data comes 
from the states. States issue reports to the department.
    Mr. Hinojosa. Yes, but our money from the federal 
government is coming to the states and to the school districts. 
And it seems to me that we ought to exercise some leadership 
and get them to collect that data. It is not your fault. I 
realize that. But the message has to get up to the folks above 
you.
    Ms. Ashby. Thank you.
    Mr. Hinojosa. I yield back, Mr. Chairman.
    Chairman Kildee. Thank you very, very much.
    Governor Castle and I have been commenting to ourselves up 
here that what a great panel this is. There has not been a 
scintilla of politics, very straight and knowledgeable answers 
from people who really know what is going on. This has been 
very helpful.
    And I think I can predict that there will be some changes 
in No Child Left Behind from the testimony that we received 
here today. It has been very, very helpful.
    So as previously ordered, the members will have 7 calendar 
days to submit additional materials for the hearing record. Any 
members who wish to submit follow-up questions in writing to 
the witnesses should coordinate with the majority staff within 
the requisite time.
    And without objection, unless you have something to say, 
the hearing is adjourned.
    [Additional questions for the record submitted by Mr. Scott 
follow:]

                  Committee on Education and Labor,
                             U.S. House of Representatives,
                                    Washington, DC, April 20, 2007.
Cornelia Ashby, Director,
Education, Workforce, and Income Security Issues, U.S. Government 
        Accountability Office, Washington, DC.
Ruth Murray, Director,
Federal Grants, Newport News Public Schools, Newport News, VA.
Ann Chafin, Maryland Assistant State Superintendent,
Student, Family, and School Support, Baltimore, MD.
Dianne M. Piche, Executive Director,
Citizens' Commission on Civil Rights, Washington, DC.
Monica Roberts, Director,
Office of Federal and State Programs, Boston Public Schools, Boston, MA
    Dear Ms. Ashby, Ms. Chafin, Ms. Roberts, Ms. Murray, and Ms. Piche: 
Thank you for testifying at the April 18, 2007 hearing of the 
Subcommittee on Early Childhood, Elementary and Secondary Education.
    Representative Robert C. Scott (D-VA), a Member of the 
Subcommittee, has asked that you respond in writing to the following 
questions:
    Under current law, SES services are only provided to low-income 
students, regardless of whether this subgroup is making AYP. In an 
effort to make the responses to failure to make AYP under NCLB more 
responsive, should SES services be targeted to subgroups that fail to 
make AYP? Also, should these services be available to everyone in a 
subgroup that failed to make AYP regardless of their income?
    Given the low participation in school choice, should more resources 
be devoted to targeted SES programs? Additionally, why should school 
choice be made available to subgroups who are not underperforming? For 
example, if a school is failing a certain group of students, why are 
students other than that group permitted to transfer schools?
    Please send an electronic version of your written response to the 
question to the Committee staff by COB on Wednesday, April 25--the date 
on which the hearing record will close. If you have any questions, 
please contact the Committee.
            Sincerely,
                                   George Miller, Chairman,
                                  Committee on Education and Labor.
                                  Dale E. Kildee, Chairman,
         Subcommittee on Early Childhood, Elementary and Secondary 
                                                         Education.
                                 ______
                                 
    [Response to Mr. Scott's questions from Director Ashby 
follows:]

         Education, Workforce, and Income Security,
                     U.S. Government Accountability Office,
                                    Washington, DC, April 25, 2007.
Hon. George Miller, Chairman,
Committee on Education and Labor, U.S. House of Representatives.
Hon. Dale Kildee, Chairman,
Subcommittee on Early Childhood, Elementary and Secondary Education, 
        Committee on Education and Labor, U.S. House of 
        Representatives.
Subject: Responses to Questions for the Record Related to the 
    Supplemental Educational Services Provisions of the No Child Left 
    Behind Act

    This letter responds to your April 20, 2007, request that we 
provide responses to questions related to our recent testimony before 
the Subcommittee on Early Childhood Education, Elementary and Secondary 
Education on early implementation of the supplemental educational 
services (SES) provisions of the No Child Left Behind Act (NCLBA).\1\ 
Our testimony discussed (1) how the proportion of eligible students 
receiving services has changed in recent years and actions that have 
been taken to increase participation; (2) how providers are working 
with districts and schools to provide services that increase student 
achievement; (3) the extent to which states and districts are 
monitoring and evaluating SES; and (4) how Education monitors state SES 
implementation and assists state and district efforts. This testimony 
was based on our recent report on these topics.\2\ Your questions, 
along with our responses, follow.
---------------------------------------------------------------------------
    \1\ GAO, No Child Left Behind Act: Education Actions May Help 
Improve Implementation and Evaluation of Supplemental Educational 
Services, GAO-07-738T (Washington, D.C.: April 18, 2007).
    \2\ GAO, No Child Left Behind Act: Education Actions Needed to 
Improve Local Implementation and State Evaluation of Supplemental 
Educational Services, GAO-06-758 (Washington, D.C.: Aug. 4, 2006).
---------------------------------------------------------------------------
    1. Under current law, SES services are only provided to low-income 
students, regardless of whether this subgroup is making AYP. In an 
effort to make the responses to failure to make AYP under NCLB more 
responsive, should SES services be targeted to subgroups that fail to 
make AYP? Also, should these services be available to everyone in a 
subgroup that failed to make AYP regardless of their income?
    While students from low-income families who attend Title I schools 
that have missed adequate yearly progress (AYP) goals for 3 consecutive 
years are the only students currently eligible to receive SES, the law 
also allows for SES to be targeted to students within that cohort who 
are the lowest achieving, and potentially in the sub-groups that fail 
to make AYP. Specifically, under current law, districts in which the 
demand for SES exceeds the level that the 20 percent Title I set-aside 
can support are required to give priority to the lowest-achieving 
eligible students. In this situation, the district has some flexibility 
in determining which students to prioritize for services. For example, 
the district might decide to focus services on students who are lowest-
achieving in the subject or subjects that caused the school to be 
identified for improvement, or it might decide that services will be 
most effective if they are concentrated on the lowest-performing 
students in particular grades.
    However, because of low participation in SES across the country, it 
is unlikely that many districts have had to prioritize eligible 
students for services. In our August 2006 report, we estimated that 19 
percent of students who were eligible for SES in 2004-2005 received 
services nationwide. Further, no students received services in about 20 
percent of the approximately 1,000 districts required to offer SES in 
2004-2005.
    Concerning the academic achievement level of students that have 
received SES, we also gathered information in our August 2006 report on 
this issue. Specifically, we estimated that 91 percent of districts 
that reviewed the academic records of students receiving SES classified 
most or all of these students as academically low-achieving. While we 
did not independently verify this information, it suggests that the 
lowest achieving students, potentially including those in the sub-
groups that failed to make AYP, are receiving SES.
    Since a subgroup's AYP status is based on the performance of each 
student in the sub-group--regardless of income--to the extent that 
funds permit, an argument could be made for providing SES to everyone 
in a sub-group that fails to make AYP in order to raise the academic 
achievement of the sub-group, with the lowest-achieving low-income 
students in the sub-group having first priority. However, without 
additional evaluation of SES's impact on student academic achievement, 
the extent to which these services are accomplishing this goal is 
unknown. Consequently, the extent to which these services would be able 
to increase the academic achievement of students in subgroups that have 
failed to make AYP is also unknown.
    2. Given the low participation in school choice, should more 
resources be devoted to targeted SES programs? Additionally, why should 
school choice be made available to sub-groups who are not 
underperforming? For example, if a school is failing a certain group of 
students, why are students other than that group permitted to transfer 
schools?
    Because of low school choice participation rates, school choice-
related transportation costs likely do not account for a significant 
portion of the 20 percent Title I set-aside that districts are required 
to use for choice-related transportation and SES. Both our report on 
school choice\3\ and the U.S. Department of Education's most recent 
report on Title I \4\ found that nationwide only 1 percent of students 
transferred schools under the No Child Left Behind Act's school choice 
provisions in 2003-2004. Low participation may be in part the result of 
parents' preferring to keep students in neighborhood schools that are 
close to their homes, as well as the limited availability of schools 
for students to transfer into. Because of low participation rates, we 
found that less than 5 percent of the Title I set-aside was spent on 
choice-related transportation costs in 5 of the 7 districts we visited.
---------------------------------------------------------------------------
    \3\ GAO, No Child Left Behind Act: Education Needs to Provide 
Additional Technical Assistance and Conduct Implementation Studies for 
School Choice Provision, GAO-05-7 (Washington, D.C.: Dec. 10, 2004).
    \4\ U.S. Department of Education, Office of Planning, Evaluation, 
and Policy Development, Policy and Program Studies Service, Title I 
Accountability and School Improvement From 2001-2004 (Washington, DC.: 
April 2006).
---------------------------------------------------------------------------
    Regarding the availability of the school choice option to all 
students in schools that have failed to meet AYP for 2 consecutive 
years, this program design provides all students in these schools with 
the ability to transfer to schools that may better meet their academic 
needs, and it also provides schools with an incentive to increase 
student academic achievement in order to retain students. If the school 
choice provisions are targeted to certain underperforming sub-groups, 
rather than all students, these program goals may not be as effectively 
achieved. In addition, as we noted in our report on school choice, 
little is known about the academic performance of students who have 
chosen to transfer schools under the choice provisions. Without that 
data, it is unknown whether students currently exercising the option to 
transfer are those in the sub-groups that have failed to make AYP or 
those in the larger student population.
    If you have any questions about the content of this letter, please 
contact me.
            Sincerely yours,
                               Cornelia M. Ashby, Director,
                         Education, Workforce, and Income Security,
                             U.S. Government Accountability Office.
                                 ______
                                 
    [Response to Mr. Scott's questions from Ms. Chafin 
follows:]

Response to Questions by Ann E. Chafin, Assistant State Superintendent 
 for Student, Family and School Support, Maryland State Department of 
                               Education

    Under current law, SES services are only provided to low-income 
students, regardless of whether this subgroup is making AYP. In an 
effort to make the responses to failure to make AYP under NCLB more 
responsive, should SES services be targeted to subgroups that fail to 
make AYP? Also, should these services be available to everyone in a 
subgroup that failed to make AYP regardless of their income?
    Within the current structure of NCLB, when school districts have 
more requests for SES than they can fund with the 20% Title I set 
aside, they must give priority to those economically disadvantaged 
students who have the more severe academic need. Thus when there are 
more requests than money, the students with the most serious academic 
need get first service under SES. If the law was changed so that only 
those economically disadvantaged students in subgroups that are NOT 
meeting AYP are allowed to participate in SES, we may address the 
immediate need in the school but lose an opportunity to invest in the 
future performance of students. However, since many students fall in 
multiple subgroups, prioritizing by subgroup rather than individual may 
address many of the same students.
    SES services are provided by Title I funds. Title I was established 
and continues to be for the mitigation of the effects of poverty on 
learning. If these funds are made available to any student not making 
AYP, regardless of poverty status, we are changing the mission of Title 
I. Poor parents and students do not have the same options as those 
parents and students who are not economically disadvantaged. Title I 
funds should not be redirected in this manner.
    Given the low participation in school choice, should more resources 
be devoted to targeted SES programs? Additionally, why should school 
choice be made available to subgroups who are not underperforming? For 
example, if a school is failing a certain group of students, why are 
students other than that group permitted to transfer schools?
    In Maryland, the SES option has received more attention from 
parents than the transfer option. Any additional funds in this area 
could be included in direct services to students. The transfer option, 
although it may meet the parents' needs and desires for their child, 
does not carry with it the powerful intervention strategies that exist 
in their home school.
    Because of this, the money might be better spent on SES.
    As I said in my previous answer, the subgroups currently making AYP 
may not make it the next year. Some investment in the future of 
students who are borderline or non-proficient regardless of their 
subgroup membership could play a part in a long term solution. However, 
some clever parents are trying to game the system to buy a house in a 
poor district and opt to have their kindergarten child attend the 
school in the more affluent attendance zone. We have curbed this 
practice by saying that only students currently enrolled in schools can 
exercise the transfer.
                                 ______
                                 
    [Response to Mr. Scott's questions from Ms. Murray 
follows:]

  Response to Questions by Ruth D. Murray, Director, Federal Grants, 
                      Newport News Public Schools

    Thank you for the opportunity to respond to your questions 
regarding SES and Public School Choice. My responses are below:
    Under current law, SES services are only provided to low-income 
students, regardless of whether this subgroup is making AYP. In an 
effort to make the responses to failure to make AYP under NCLB more 
responsive, should SES services be targeted to subgroups that fail to 
make AYP? Also, should these services be available to everyone in a 
subgroup that failed to make AYP regardless of their income?
    The current requirement of offering SES services to all low-income 
students regardless of AYP performance has cause concern and alarm 
among parents in our division. Parents of high-performing students have 
had many questions on why they were being asked to participate in SES. 
Because in our division the goal is 100% participation in SES, these 
parents are often asked many times in many ways to participate. This is 
frustrating for them and the school division.
    Currently the funds for SES services are taken from the school 
division's Title I allocation. Setting aside this 20% reduces the 
funding to all Title I schools and therefore reduces services in high-
poverty schools. Schools having not less than 40% poverty can operate 
as Title I School-wide programs and provide services to all students in 
the building. I believe this same concept could be used with SES. All 
students, regardless of income or subgroup, who fail to achieve 
proficiency on the state assessments, should be offered the opportunity 
to receive SES services. This would target the students who need the 
help.
    Given the low participation in school choice, should more resources 
be devoted to targeted SES programs? Additionally, why should school 
choice be made available to subgroups who are not underperforming? For 
example, if a school is failing a certain group of students, why are 
students other than that group permitted to transfer schools?
    Public School Choice and SES Set-Aside is an amount equal to 20% of 
Title I, Part A allocation. The breakdown is 5% Public School Choice, 
5% Supplemental Education Services; and 10% either as needed. In 
Newport News we allocate the entire amount for SES because the low 
participation in Public School Choice makes the expenses minimal.
    Offering all students the opportunity to leave a low-performing 
school and then the next year (after students have left) providing 
extra help through tutoring, does not seem the best way to help a low-
performing school. Often the students who leave the school are the ones 
who are performing well and whose parents are the most involved. 
Reversing the order of SES and Public School Choice would allow the 
school to offer tutoring first and then if students are still not 
performing and parents are still not satisfied, they could choose 
another school. Limiting Public School Choice to only students who are 
not performing academically would eliminate students transferring for 
reasons other than achievement.
                                 ______
                                 
    [The prepared statement of Steven Pines follows:]

        Prepared Statement of Steven Pines, Executive Director,
                     Education Industry Association

    Chairman Kildee, Ranking Member Castle, Members of the Subcommittee 
on Early Childhood, Elementary and Secondary Education: I am Steve 
Pines, the executive director of the Education Industry Association 
(EIA), the nation's leading professional association for private 
providers of education services and suppliers/developers of educational 
content for students spanning Pre-K through college. Our 500+ members 
serve individual families, communities and partner with schools, and it 
is the latter group that I am addressing today: specifically, providers 
of Supplemental Education Services (SES).
    Thanks to the bi-partisan No Child Left Behind Act (NCLB), children 
attending schools that fail to make adequate yearly progress toward 
academic proficiency in reading and math have access to tutoring 
services paid for with federal dollars. With this provision, low income 
students can now access the same high-quality tutoring that middle-
class parents have sought for their children for years.
    EIA welcomed the Subcommittee's examination of the supplemental 
educational services (SES) provision of ``No Child Left Behind'' 
(NCLB), particularly its focus on accountability, widening access to 
more students, and ensuring the availability of high-quality SES 
programs.
    I appreciate the opportunity to comment on these three important 
issues.
    <bullet> Accountability--EIA fully supports SES accountability, and 
has called for additional funding to be made available to States to 
assist with the implementation of comprehensive SES evaluation 
programs. The witnesses at the hearing, as well as the Members in 
attendance, made it clear that while some progress has been made, 
States must do more to monitor and evaluate the effectiveness of SES. 
Meantime, EIA has tracked third-party SES evaluations done to date, and 
found that federally funded tutoring is highly regarded by parents 
(with typically 8 in 10 parents citing evidence that the tutoring has 
helped their children in school), and is having a positive effect on 
standardized test scores. A report on our findings can be accessed at 
the EIA website, www.educationindustry.org.
    <bullet> Accessibility--EIA was pleased to hear of the efforts of 
the state of Maryland, as well as the Newport News, VA school district, 
to make SES available to the greatest number of eligible families 
possible. However, both the Government Accountability Office (GAO) and 
the Citizens Commission on Civil Rights testified that SES enrollment 
rates continue to be unacceptably low, the latter calling for greater 
efforts to improve outreach and earlier promotion of SES, including the 
further opening of school sites to SES programs.
    <bullet> Quality--Once again, Maryland leads by example, describing 
State policies that ensure delivery of high-quality SES services. EIA 
believes that the current NCLB quality standards which guide the 
States' provider approval process are effective and appropriate, 
including those covering curriculum alignment, instructional methods, 
tutor qualifications and instructional materials. All providers, as a 
condition of state-approval, must align their tutoring curricula to the 
state's academic standards--the same standards to which local school 
districts must align.
    To address these broad issues, EIA encourages the Subcommittee to 
consider EIA's NCLB reauthorization policy recommendations, issued on 
March 29, available at www.educationindustry.org, and summarized below:
    <bullet> Increase student access and participation by requiring 
that unspent SES funds are carried over by states and districts for SES 
use only.
    <bullet> Expand administrative resources for States and school 
districts to better market, manage and evaluate SES programs.
    <bullet> Require states to appoint a third-party administrator of 
SES in situations where school districts are permitted to provide SES 
services to ensure fair-play.
    <bullet> Expand research and evaluation of SES effectiveness at the 
national level.
    <bullet> Provide incentives to increase access to services for 
underserved student groups, including limited English proficiency (LEP) 
students, students residing in rural areas and those with disabilities.
    EIA also offers the following comments on additional issues raised 
by Subcommittee Members during the hearing:
    <bullet> SES providers must align tutoring curricula with state 
learning standards--The alignment of SES curricula with such standards 
is a requirement for provider selection by states. These same state 
standards guide local school districts, thus completing the sequence of 
linking tutoring to academic standards used in the classroom. All 
instruction and methods used by tutors must be research-based as well.
    <bullet> SES tutors are selected by parents for academic support 
which supplements the instruction of the regular school day, often 
filling skill gaps not taught in the classroom. Tutors are often, but 
not always, certified teachers, and it is this variety of instructors 
that creates an enriched and innovative array of academic supports that 
are responsive to the diverse needs of low-performing students. 
Requiring all tutors to meet the Highly Qualified Teacher (HQT) 
standard will substantially limit the supply of tutoring organizations 
and reduce the overall participation rate of students. Overall program 
quality is best regulated through rigorous evaluations of program 
impacts.
    <bullet> SES providers are using innovative means to address the 
needs of students residing in rural locations; the needs of English 
language learners and students with learning disabilities--The number 
and variety of SES providers offering services nationwide ensures that 
these students are receiving the special services they require. More 
must be done to increase the participation rates of these subgroups, 
including increasing to resources that may be needed to accommodate 
their unique learning needs and environments.
    <bullet> Costs and therefore service fees cited by school district-
managed SES providers vs. private SES providers are not comparable--
Private SES providers face and must account for a host of costs not 
borne by district-managed programs, including rental of school 
facilities, costs for instructional materials, supervisory and 
professional development expenses, data-entry and other administrative 
expenses. A true ``apples to apples'' cost comparison would show no 
differences in the costs of service delivery between the local schools 
and an external organization.
    Finally, while EIA observed the witnesses at today's hearing 
offering good and timely information, we hope that Congress will seek 
comment from some of the hundreds of thousands of families who have 
been given hope and needed support by the after-school tutoring 
program.
    On behalf of EIA and especially our members who are SES providers, 
thank you for the opportunity to submit my comments for the record. I 
welcome any questions or followup requests for information Members of 
the Subcommittee may have.
                                 ______
                                 
    [Whereupon, at 11:23 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
